<html>
<title> - 2010 CENSUS: REDUCING THE UNDERCOUNT IN THE HISPANIC COMMUNITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
     2010 CENSUS: REDUCING THE UNDERCOUNT IN THE HISPANIC COMMUNITY

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 9, 2007

                               __________

                           Serial No. 110-55

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
42-899 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
PAUL E. KANJORSKI, Pennsylvania      MICHAEL R. TURNER, Ohio
CAROLYN B. MALONEY, New York         CHRIS CANNON, Utah
JOHN A. YARMUTH, Kentucky            BILL SALI, Idaho
PAUL W. HODES, New Hampshire
                      Tony Haywood, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 9, 2007.....................................     1
Statement of:
    Gonzalez, Hon. Charles, a Representative in Congress from the 
      State of Texas.............................................     6
    Kincannon, Charles Louis, Director, U.S. Census Bureau; and 
      Kevin Wolff, city council member, mayor pro tem, city of 
      San Antonio, TX............................................     8
        Kincannon, Charles Louis.................................     8
        Wolff, Kevin.............................................    15
    Rodriguez, Hon. Ciro, a Representative in Congress from the 
      State of Texas.............................................     6
    Saldana, Steven, president, Catholic Charities Archdiocese of 
      San Antonio; Arturo Vargas, executive director, National 
      Association of Latino Elected and Appointed Officials 
      Educational Foundation; L. Diane Bennett, president and 
      CEO, Kineta Corp., Charlotte, NC; and Lydia Camarillo, vice 
      president, Southwest Voter Registration Education Project..    32
        Bennett, L. Diane........................................    45
        Camarillo, Lydia.........................................    61
        Saldana, Steven..........................................    32
        Vargas, Arturo...........................................    35
Letters, statements, etc., submitted for the record by:
    Bennett, L. Diane, president and CEO, Kineta Corp., 
      Charlotte, NC, prepared statement of.......................    48
    Camarillo, Lydia, vice president, Southwest Voter 
      Registration Education Project, prepared statement of......    64
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     4
    Kincannon, Charles Louis, Director, U.S. Census Bureau, 
      prepared statement of......................................    10
    Saldana, Steven, president, Catholic Charities Archdiocese of 
      San Antonio, prepared statement of.........................    34
    Vargas, Arturo, executive director, National Association of 
      Latino Elected and Appointed Officials Educational 
      Foundation, prepared statement of..........................    38
    Wolff, Kevin, city council member, mayor pro tem, city of San 
      Antonio, TX, prepared statement of.........................    18


     2010 CENSUS: REDUCING THE UNDERCOUNT IN THE HISPANIC COMMUNITY

                              ----------                              


                         THURSDAY, JULY 5, 2007

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                 National Archives,
              Committee on Oversight and Government Reform,
                                                   San Antonio, TX.
    The subcommittee met, pursuant to notice, at 9:12 a.m., at 
Henry B. Gonzalez Convention Center, 200 E. Market Street, room 
103-A, San Antonio, TX, Hon. Wm. Lacy Clay (chairman of the 
subcommittee) presiding.
    Present: Representative Clay.
    Also present: Representatives Gonzalez, and Rodriguez.
    Staff present: Tony Haywood, staff director; Alissa Bonner, 
professional staff member; and Will Ragland, staff assistant.
    Mr. Clay. The Subcommittee on Information Policy, Census, 
and National Archives will come to order. Today's field hearing 
will examine the issues relating to efforts to reduce the 
undercount among Hispanics and Latinos in the 2010 census. 
Without objection, the Chair and other Members will have 5 
minutes to make opening statements, and, without objection, 
Members and witnesses may have 5 legislative days to submit 
written statements or extraneous materials for the record.
    I want to recognize my two distinguished colleagues who are 
here today. Our gracious host, Mr. Charles Gonzalez, as well as 
Ciro Rodriguez, for both being here and joining the 
subcommittee today. Let me make an opening statement, and then 
I will introduce these two formally.
    Let me begin by thanking my colleague and friend, 
Congressman Charles Gonzalez, for agreeing to host us in San 
Antonio and for the hard work of his staff in helping us to 
plan and prepare for today's hearing. Our relationship goes 
back through generations. His father and my father served 
together in the U.S. House. When I got here, he quickly became 
a friend of mine, and I appreciate his friendship.
    Let me also thank Mayor Phil Hardberger and the city of San 
Antonio for their cooperation in making the Henry B. Gonzalez 
Conference Center available to us today. In addition, I am very 
pleased that we are joined today by my friend, Congressman Ciro 
Rodriguez of the 23rd District of Texas. We in Congress are so 
pleased to have Ciro back in Congress where he should be and 
should stay. We can clap for him.
    [Applause.]
    Mr. Clay. The issues we will be discussing today are very 
important to him and his constituents, and we are fortunate to 
have our colleagues' participation in this hearing. Today's 
hearing is the third in a series of oversight hearings looking 
at the Census Bureau's preparation for the 2010 census. It is 
our first field hearing related to the census.
    Article 1, Section 2 of the U.S. Constitution, it mandates 
an actual enumeration of the U.S. population for the purpose of 
apportionment of congressional seats. In addition, the 
information is used to allocate $283 billion in Federal funds 
and to manage Federal agencies. Therefore, it is imperative 
that the data be complete, accurate, and timely. This requires 
the Federal Government to exercise due diligence in its effort 
to count each and every person in the 50 States and the 
District of Columbia, Puerto Rico, and the island territories.
    The 2000 census counted 35.3 million Hispanics living in 
the United States. That was up 13 million from the 1990 census. 
The Latino population as a percentage of the total U.S. 
population grew from 9 percent in 1990, to 12.5 percent in 
2000. Unfortunately, the Census Bureau estimates that it missed 
over 3 million people of Hispanic origin in 2000, and this 
undercount contributed in part to a loss of over $4.1 billion 
in Federal funding for 31 States and the District of Columbia. 
Another $3.6 billion of Federal funding was lost by the 
Nation's 58 largest couties, including Harris and Dallas 
Counties here in Texas. This loss of Federal funding taxed the 
resources of State and local governments and compromised the 
level of services provided to residents.
    Data about Hispanic origin also helps to determine 
compliance with Federal laws such as the Voting Rights Act, 
Bilingual Election Requirements, the Home Mortgage Disclosure 
Act, the National Affordable Housing Act, and other statutes 
that address affirmative action, nutrition, education, 
veterans' benefits, older Americans, public health, and energy 
assistance. Reducing the Hispanic undercount is necessary to 
ensure that these laws are enforced and administered 
effectively.
    This morning we'll discuss the Census Bureau's plan of 
reducing the undercount of the Hispanic and Latino population 
in the 2010 census, including efforts to improve outreach to 
residents of hard-to-count communities. The tone of the ongoing 
immigration debate and recent data breaches involving various 
government agencies heighten the challenge of counting 
residents in hard-to-count communities, where language barriers 
and fear of or distrust of the government are prevalent.
    To achieve a full and accurate count, the Census Bureau 
must use every legal and viable means to instill public 
confidence in the Bureau's ability to collect census data 
without putting anyone's privacy at risk. These efforts should 
include providing language appropriate materials for target 
populations in the Latino community, hiring Hispanics as both 
senior managers and enumerators, and maximizing cooperation of 
community partners to strengthen outreach and education.
    One week from Wednesday, the House will be voting to 
provide funding for these efforts, and today's testimony will 
inform the debate as competing priorities to consider on the 
House floor. With the help of our witnesses, we hope to learn 
this morning what the Census Bureau needs and must do to be 
effective in meeting the challenges associated with obtaining 
full information of the Hispanic population. This will be a key 
component of the broader efforts of securing a complete and 
accurate count of the entire population on census day 2010.
    Now let me yield to my distinguished colleague and our 
gracious host, Congressman Charles Gonzalez.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T2899.001
    
    [GRAPHIC] [TIFF OMITTED] T2899.002
    
    STATEMENT OF HON. CHARLES GONZALEZ, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Gonzalez. Thank you very much, Chairman Clay. First of 
all, welcome to you and your staff. We all got together last 
night. We were on the river, on a barge, so I think they had an 
interesting dinner and hopefully an enjoyable evening. And I'm 
going to be really brief. I know Ciro is going to also have 
some comments.
    What the chairman brings today with his staff is the 
interest that Congress is showing on probably one of the most 
important aspects of what government does, and that is the 
census that has been there since the forming of our country. 
This is a listening tour more than anything else, and we're 
here to learn and to take back to our colleagues and to share 
with them the information that is actually gathered at these 
field hearings.
    We will be touching, of course--and I think the chairman 
has already touched on the importance of the census. We don't 
really believe that most Americans understand the importance of 
the census and how it impacts their daily lives. We're also 
here to identify and to encourage, to promote partnerships. The 
Census Bureau cannot conduct the census and be successful 
without those local partnerships. And I think the Director and 
other witnesses will be addressing that, as well as leaders 
from our city in what we have to do.
    The census tells us who we are as a Nation. It will 
identify the needs of our Nation, and it will allow us to 
provide the opportunity to our citizens that have always 
distinguished this country more so than any other country. That 
is how important the census is.
    Minority communities occupy a very unique position, and you 
will hear some of the concerns and some of the challenges that 
face minority communities by some of our witnesses. They will 
be those communities that are truly undercounted, and those are 
the communities whose needs are the greatest and have to be 
addressed by government, as well as the private sector. The 
facts and figures that are gleaned, that are actually compiled 
by the Census Bureau, are not just used--again, these figures 
are not just used by the government, whether it's Federal 
Government or it's State or local governments. The private 
sector, in large measure, also makes very important economic 
decisions that impact us all based on these same figures. So I 
think that is our message today.
    I am truly gratified that Chairman Clay chose San Antonio, 
because he could have chosen other cities. But I think he 
understands where we are and the position we occupy as a city, 
and, of course, the large Hispanic population not just in this 
city, but in all of the Southwest. And with that, I thank you 
very much, Mr. Chairman.
    Mr. Clay. Thank you so much, Congressman. Now I will yield 
to Congressman Ciro Rodriguez for an opening statement.

STATEMENT OF HON. CIRO RODRIGUEZ, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Rodriguez. Thank you, Mr. Chairman. Let me first of all 
welcome you to San Antonio also. Thank you for coming out here. 
I also want to personally thank you for doing what you're doing 
right now. I know how important this is, how essential this is, 
and I know how difficult it is to get people to start to pay 
attention to the importance of this issue.
    You mentioned the over 3 million undercount that occurred. 
If we can just look at that--and those that are involved in 
redistricting, that would have meant almost four additional 
Congressmen, and not to mention that in Texas--that was a 
conservative figure in Texas--we lost, just on the undercount 
from the previous decade, over $1 billion. So you can figure 
out--I know that a welfare counselman would know what to do 
with a billion bucks. Right? [Laughter.]
    So, in terms of the difference in the disparity that occurs 
because of the undercount. And it's an issue that requires 
these types of hearings so that we can start getting the word 
out so that we can start doing those things that are needed in 
making sure that everyone gets counted, and that's important.
    [Speaking Spanish.]
    Mr. Rodriguez. And so it's important for us to continue to 
have these hearings. And I want to congratulate our chairman, 
but I also want to congratulate Congressman Gonzalez. 
Congressman Gonzalez played a very significant role in the last 
census. I know he had a series of meetings on behalf of the 
Hispanic caucus. He was engaged in trying to get them to do 
some counts in certain areas and making sure that certain 
people got hired in order for that to occur and that to happen. 
No one knows this process better than Congressman Gonzalez and 
the difficulty that we have here in the San Antonio area, in 
South Texas, in making that happen. So I want to personally 
thank him for his engagement. So congratulations. Thank you.
    Mr. Clay. Thank you so much, Congressman Rodriguez. Thank 
you for being here. The subcommittee will now hear testimony 
from the witnesses before us today. Our first panel, we'll hear 
from the Honorable Charles Louis Kincannon, Director of the 
U.S. Census Bureau, and the Honorable Kevin Wolff, City Council 
Member and Mayor Pro Tem of the city of San Antonio. Thank you, 
Director Kincannon and Councilman Wolff, for appearing before 
the subcommittee today.
    It is the policy of the committee to swear in all witnesses 
before they testify. Will you both please stand up and raise 
your right hands?
    [Witnesses sworn.]
    Mr. Clay. Let the record reflect that the witnesses 
answered in the affirmative. Thank you.
    Dr. Kincannon, before you begin, I want to say again how 
much we appreciate your service in leadership as Director of 
the Census Bureau. Congressman Gonzalez and I had the 
opportunity to meet with you and Dr. Steven Murdock, who has 
been nominated to succeed you as Director. And based on his 
credentials and our conversation, I am hopeful that Dr. Murdock 
will bring a similar level of expertise and commitment to the 
top job at the Census Bureau.
    That said, you will have 5 minutes to make an opening 
statement. Your complete written testimony will be included in 
the hearing record. The timing system is malfunctioning, but we 
will indicate to you when you get close. You may proceed.

 STATEMENTS OF CHARLES LOUIS KINCANNON, DIRECTOR, U.S. CENSUS 
 BUREAU; AND KEVIN WOLFF, CITY COUNCIL MEMBER, MAYOR PRO TEM, 
                    CITY OF SAN ANTONIO, TX

              STATEMENT OF CHARLES LOUIS KINCANNON

    Mr. Kincannon. Thank you, Mr. Chairman. Thank you very much 
for holding this field hearing in San Antonio. And I must say I 
have renewed respect for your foresight in that you chose to do 
it on a day when it's 88 degrees in San Antonio and 100 degrees 
in Washington, DC. But it will make our recruiting problems 
here more difficult, I think.
    I am very pleased to begin with Congressman Gonzalez and 
with Congressman Rodriguez. I was born in Texas, in Waco. I 
went through the 3rd grade here in San Antonio, and then I 
spent the rest of my youth in Corpus Christi.
    [Speaking Spanish.]
    Mr. Kincannon. It stood me in good stead many times to 
speak to people I otherwise could not deal with, the head of 
the planning, William Frederico, the Waco community leaders 
sometimes who were more comfortable speaking in Spanish. And 
when I worked in Europe, I found that it opened some doors that 
my English would not, so--that was taught in the public schools 
in Corpus Christi, and I have gained all my life from that 
opportunity.
    Well, I'm still going to be held to 5 minutes, so I'll have 
to say that in the past decade, a number of important changes 
have taken place in our country. Among those noteworthy changes 
is the continued growth of the Hispanic community, our Nation's 
largest minority community. The importance of this growth 
should not be underestimated. It is, therefore, critically 
important for the Census Bureau to ensure that our plans for 
2010 will provide accurate data that will be used to create 
opportunity for the thousands of Latino communities throughout 
our country. Based on the 2000 census, we think we can further 
improve the accuracy and coverage of the census. That's our 
primary goal for 2010.
    One of the most significant achievements of the 2000 census 
was reducing the undercount of the Nation's historically 
undercounted communities, including Hispanics, African-
Americans, and American Indians living on reservations. This 
success was in large part the result of extraordinary outreach 
efforts from the inner-city neighborhoods of St. Louis, to the 
colonias of South Texas. Working with partners in the Nation's 
hardest-to-count communities was key to achieving trust and 
encouraging participation.
    We worked with national organizations, including NALEO, 
MALDEF, LULAC, and the GI Forum, as well as the faith-based 
community and locally elected officials. And to meet the needs 
of the hardest-to-count communities, such a colonias, in 
addition to outreach, we used different operational strategies 
in the field. For 2010, we know improvements can be gained 
throughout the census process, from the address list 
development, to better response strategies, as well as outreach 
among the Nation's hard-to-count communities.
    In preparation for the 2010 census, we have conducted 
extensive planning and testing. Thanks to congressional 
support, this will be the best planned and most tested census 
in our Nation's history. Throughout the decade, the Census 
Bureau has placed a high priority on improving the accuracy of 
the census address list. We are working extensively with U.S. 
Postal Service to update this address list twice every year, 
and we are working with local communities to update the address 
list and gather information about group quarters; nursing 
homes, college dormitories, and the like, so that we can count 
that community well.
    Our goals for language are to provide effective ways for 
our Nation's diverse communities to participate and respond to 
the census. For the first time we will mail bilingual Spanish/
English census forms to neighborhoods with higher proportions 
of people who show need to reply in Spanish. We are also 
identifying areas throughout the United States where 
information--informational materials in other languages will be 
helpful. We will also encourage local hiring efforts to ensure 
that we hire enumerators with relevant language skills to the 
neighborhoods in which they will be working.
    The success of the census will also be enhanced through 
partnership and outreach. It is our commitment to work with 
communities throughout the Nation so each and every person 
living in the United States can be counted on census day. To do 
so, the Census Bureau is planning a multifaceted and integrated 
communications program to reach every community. As a part of 
the overall communication strategy, we intend to incorporate 
the lessons and successes of the 2000 census, which included 
both paid advertising and reliance on partnerships.
    Partnerships are fundamental to the success of the census. 
These partnerships encourage participation and demonstrate the 
importance of the census to the community. Local leaders at the 
grass roots, whether they are in churches or in schools or in 
business or in grassroots organizations are more trusted by 
local people than the Census Bureau. They believe us, but not 
quite as much as they do people they know every day and see 
every day. Partners are often our best Ambassadors in hard-to-
count areas.
    As I mentioned at the beginning, this census is the most 
planned and tested census in our Nation's history. Our primary 
goal for the 2010 census is improved coverage and accuracy. We 
believe all of our coverage improvements, efforts to date, 
contribute to this goal. Chairman Clay, I assure you that the 
Census Bureau is fully committed to the goal of counting every 
American in their proper place and in their communities, 
especially the hard to count.
    Thank you for supporting the goals of the census, which you 
have done consistently.
    Mr. Clay. Thank you so much, Director.
    [The prepared statement of Mr. Kincannon follows:]

    [GRAPHIC] [TIFF OMITTED] T2899.003
    
    [GRAPHIC] [TIFF OMITTED] T2899.004
    
    [GRAPHIC] [TIFF OMITTED] T2899.005
    
    [GRAPHIC] [TIFF OMITTED] T2899.006
    
    [GRAPHIC] [TIFF OMITTED] T2899.007
    
    Mr. Clay. Mr. Wolff, please proceed.

                    STATEMENT OF KEVIN WOLFF

    Mr. Wolff. Before I dig into this a little bit, I do want 
to give a special thank you to Congressman Gonzalez and 
Congressman Rodriguez for the great work you do for our 
community. Both of you have given a lot of your lives to 
helping us, and I really want you to know we really appreciate 
it here. I'm going to read a number of things here. That's not 
my preferred mode of communication, but there's a lot of 
important information in there, and I want to make sure I get 
it across correctly.
    So, with that said, chairman and members of the committee, 
my name is Kevin Wolff. I'm the city councilman for District 9 
and the current mayor pro tem. On behalf of the city of San 
Antonio, I would like to welcome and thank the House Oversight 
and Government Reform Committee's Subcommittee on Information 
Policy, Census, and National Archives for this opportunity to 
examine plans on how the Census Bureau can work better with the 
city of San Antonio to ensure an accurate count in the 2010 
census.
    The city takes an active role in the legislative and 
regulatory process in Washington, DC, and we are honored that 
you have chosen our city as the site for this important hearing 
concerning the upcoming 2010 census. We are very grateful for 
the leadership of our hometown Congressman, Charlie Gonzalez, 
on the issue of the census, and again thank this subcommittee 
for holding a field hearing in our great city.
    San Antonio, with an estimated population of 1.3 million, 
is the seventh largest city in the United States and the second 
largest in Texas. Ensuring the most complete count possible is 
important to San Antonio because it affects city, State, and 
Federal political representation, Federal and State funding of 
programs, economic development, planning for physical growth, 
and delivery of health and human services.
    In addition to our increasing growth rates and geographical 
size--we're 472.9 square miles--our population characteristics 
also present unique challenges to the San Antonio census count. 
Of special note, Texas is now a majority-minority State, with 
an increasing diverse population. Texas has a minority 
population of 11.3 million, comprising 50.2 percent of its 
total population of 22.5 million. Following this trend, San 
Antonio's minorities represent 68 percent of the city's 
population. Currently, Spanish speakers constitute a ratio of 
more than 1 in 10 U.S. household residents. San Antonio has a 
Hispanic population of 59 percent and a significant number of 
Spanish-speaking households.
    Mail non-response was significant, ranging from 25 to 60 
percent in areas with a median income below 24,000 during the 
1990 count. In 2000, San Antonians had a median income of 
36,000 and 17 percent of the population below the poverty 
level. Based on this historic data, the potential for an 
undercount is apparent.
    In a post-enumeration survey of the 1990 census, it was 
determined that approximately 39,000 persons, or 3.9 percent of 
the population in San Antonio, was not counted. According to an 
estimate from the Texas State Attorney General's Office, our 
community lost approximately 142 million in Federal and State 
funds over a 10-year period as a result of the 1990 undercount. 
And, yes, I could figure out how to spend the 142 million as 
well.
    To boost response rates, the efforts of the Census Bureau's 
Publicity Office should be enhanced. For the 2000 count, this 
office provided paid advertising, a census in school programs, 
a Partnership Program engaging businesses and community groups, 
and special events to promote outreach and response.
    San Antonio partnered with Bexar County to participate 
financially to support the promotion efforts. The Census 
Bureau's Publicity Office coordinated with our local 
complement, the San Antonio-Bexar County Complete Count 
Committee, to spearhead a four-point program.
    One, a public awareness program that focused on media, 
special events, newsletters of existing organizations, speaker 
pool, posters, flyers, and mail outs.
    Two, a targeted outreach program that identified targeted 
areas, recruited outreach volunteers in existing organizations 
and volunteer centers, and promoted block walks to improve 
response rates.
    Three, a shelter program that inventoried shelters and 
participated in surveys.
    Four, resource development to identify specific resources 
needed to target the census efforts to improve response rates 
and solicit resources from subcommittees and affiliated 
organizations.
    Community partnerships were critical in the developments of 
these programs. A mailing and contact list had contacts ranging 
from professional organizations, schools, colleges, 
universities, public utilities, media, military bases, elected 
and appointed officials, neighborhood and community groups, to 
faith-based organizations.
    Of special note, the city recently initiated the Haven for 
Hope, a 10-year plan to end homelessness. This plan includes a 
multifunctional campus near downtown that will deliver 
comprehensive human services to address homelessness, in 
partnership with health and human service providers, local 
charities, and the private sector. This should provide an 
opportunity to obtain a more accurate count of our homeless 
citizens and assess their needs.
    For the 2010 census, the Complete Count Committee would 
continue its role in conducting promotional, educational, and 
outreach activities to persuade people to be counted. Of 
particular concern will be increased outreach among the city's 
diverse population, low-income areas, and non-English speakers, 
where the potential for an undercount exists.
    Second, the Census Bureau should continue its move toward 
an electronic format to help ensure the accurate--and my time 
is dinging.
    In closing, the U.S. Census Bureau should provide the most 
efficient and effective counting program for the 2010 census. 
It should strive to improve coverage of the population and 
reduce the differential undercount; improve the accuracy of 
responses and locating people geographically; increase mail 
response rates; maintain and refine an open process with all 
stakeholders; use the most effective modes for responding to 
the census; increase the use and effectiveness of language 
assistance guides and non-English language questionnaires; and 
ensure a diverse work force and improve the effectiveness of 
recruiting, training, and pay strategies in obtaining the work 
force needed to conduct the field operations.
    I believe that's exactly what the Honorable Kincannon has 
said before. So, again, thank you very much for giving me the 
opportunity to come and testify, and certainly I'll be here for 
any question that you may have.
    Mr. Clay. Thank you, Councilman Wolff.
    [The prepared statement of Mr. Wolff follows:]

    [GRAPHIC] [TIFF OMITTED] T2899.008
    
    [GRAPHIC] [TIFF OMITTED] T2899.009
    
    [GRAPHIC] [TIFF OMITTED] T2899.010
    
    Mr. Clay. And you would make an excellent witness on 
Capitol Hill. You understand keeping within those time lines, 
and you're a speed reader. I appreciate it. I am going to defer 
first to my host--my gracious host, Congressman Gonzalez and to 
Congressman Rodriguez. Congressman Gonzalez, you have 5 
minutes.
    Mr. Gonzalez. Did you notice the chairman gave me 5 
minutes? But I'm--a little bit of slack. Thank you very much.
    This is to the Director. And I guess what I want to get to 
right away is to acknowledge some of the issues that are out 
there that confront us and then may make this particular census 
a lot more difficult than the last one, if you can imagine. And 
the reason I say that is obviously we're just coming off a very 
intense immigration debate. And we have to acknowledge, first 
of all, that everyone residing in our country is counted, 
whether they are citizens or not. And we have individuals, you 
know, Mr. Director, that would disagree with that proposition. 
But other than the Constitution of the United States, which 
mandates that be the order, there's not much arguing about that 
particular principle, and that is, everyone is going to be 
counted, regardless of legal status, citizenship, and so on. 
And it is important, and there are a lot of reasons for that, 
which we could go into.
    On top of all that, we also have had data breaches at the 
Federal level; people losing information and such that should 
have been confidential. We've got that problem. We have large 
segments of society that believe that government is more 
intrusive now than ever since 9-11. So we have all those 
factors working in--what I think actually mitigate against our 
best efforts--success anyway. And so I'm trying to ascertain 
how you view those factors, what you think the impact would be, 
and how you would address it?
    Mr. Kincannon. Well, that's a tall order for some of the 
topics that you raised. I agree that the continuing public 
dialog and relative discord about immigration will make our job 
harder in 2010, but I don't know, even if a bill had been 
passed, it might not have resolved all of that either. But we 
have to work again very closely with partners in the community.
    The census law is very clear. We cannot disclose 
information about individuals to any law enforcement agency or 
indeed to anybody who's not working for the Census Bureau, and 
that is observed very strictly. Yes, there are flaws sometimes 
where opportunity exists for risk of disclosure, but we're 
continually plugging those kind of holes.
    It is important that respondents who fear the government 
for whatever reason, or whether they just don't think it's the 
government's business, understand that law. And I could talk 
about that law until I'm blue in the face in every major city 
in the country, and it will not be nearly as effective as a 
clergymen in South San Antonio talking to his congregation 
about that law and saying, ``I've looked at this. I know it can 
be trusted and accepted.'' Or local community leaders in civil 
society or even in business, they convey with much more 
persuasiveness a sense of trust. So we're going to be more 
dependent than ever on partners in the community to conveying 
that guarantee.
    On other areas, I think that we have made important 
progress. The fact that we will have a short-form-only census 
in 2010 is very important, I think, to increasing the mail 
response rate and the general cooperation of people. We're only 
going to be asking about eight questions, and they're not 
controversial questions.
    Although, some people in this country are frustrated when 
they get a race question that is historically based rather than 
maybe their vision of what group should be identified. But 
realists understand that this plays a role in guaranteeing the 
security of five identified groups who have been legally 
discriminated against in voting in the history of our country. 
So we will get much better cooperation, I believe, in a short-
form-only census.
    A small effect of that--maybe not so small--is that the 
more controversial questions on the long form now are asked in 
small monthly samples that are carried on throughout the 
country and provide information through the American Community 
Survey to communities such as San Antonio every year, and not 
just once every decade. That means that a lot of fodder for 
public complaint and discussion about the census is set aside. 
There are questions on the long form that are more sensitive, 
like income. There are questions that people don't understand 
why the government needs to know, like your journey to work, 
what time you leave the home, and how you--how far you travel, 
and what means you do. Obviously, that's very important to 
transportation planning in San Antonio and throughout Texas, 
but it's not immediately obvious to the person who gets the 
questionnaire at home. That all is set aside from national 
controversy in the course of that census.
    The fact that we can have a short-form-only means that we 
can send in areas where the American Community Survey tells us 
there is a concentration of households where Spanish is spoken 
at home and English is not spoken well or very well. That means 
that we can target those areas with the bilingual questionnaire 
for the first time and not have to followup through a more 
clumsy process of offering a questionnaire in Spanish if 
someone requests it. I think that will be a big help in 
Hispanic coverage particularly.
    The fact that we will use a hand-held computing device in 
order to do the nonresponse followup and other activities in 
the census is going to be very helpful because it means if 
someone mails their questionnaire late, we know that and can 
tell the next day the enumerator who's going around to knock on 
the door, ``You don't have to go to 129 East Vanderbilt Street. 
You can switch that, because we've got their questionnaire.'' 
They know exactly the location of where they're going and 
spotted with GPS technology and so on. All of these tools help 
us to make sure that we can do a good job in countering overall 
frustrating trends in our society.
    Mr. Gonzalez. Thank you very much, Director. Do I still 
have time? OK. Because I don't want Councilman Wolff--the same 
question in many ways. And thank you for your service and your 
kind words. Because of the political climate--and you're a very 
sensitive political person, appreciating the impact and the 
consequences to the efforts of the city in forming that 
partnership and what we will be asking you as a partner to do. 
How do you see it impacting what--you and the City Council and 
city staff and others?
    Mr. Wolff. Thank you, Congressman. It will impact us. As 
you know--I've shared this story with you. My family and I 
lived in Manhattan during 9-11 and worked in the city. And so, 
you know, all of those things have served to sort of change our 
country. Some in not so good ways. Some in perhaps some good 
ways.
    But the fact is that it has changed, and it's brought 
issues about how we deal with immigration, how we deal with 
border security. You know, certainly in my mind I see those as 
two very different issues. And I think--well, quite frankly, I 
think we've made a mistake in Washington by sort of combining 
those two. I think we need to address them separately. That's 
my personal opinion. But that personal opinion affects the 
decisions I make here in San Antonio and how we can help 
support this effort.
    You know, I thought about saying this at the beginning of 
my testimony. I can't think of a more important, I guess, 
counting exercise we do than this one. You know, you mentioned 
some things about either private sector--we know about the 
government sector. I mean, it is amazing how these numbers flow 
through our entire country and how many decisions we make on 
that. And so, while I acknowledge that it's going to possibly 
be tougher than it was before, just acknowledging that and 
getting ready for it as we're coming up to it is going to make 
us so much stronger than perhaps we've been in the past. And it 
will really point to--and I think we can talk about this all 
the time. How important it is to do this correctly.
    And so I don't know that we have all those answers yet, but 
I think just being cognizant that it is going to be a tough job 
better prepares us to do it.
    Mr. Gonzalez. Thank you very much, Mr. Wolff.
    Mr. Clay. Congressman Rodriguez.
    Mr. Rodriguez. Thank you, Mr. Chairman. Let me--I sit on 
the appropriations, so I know that without the resources, you 
can't make happen what you want to make happen. And if you 
can't respond now, I'd like to get it later on.
    No. 1, maybe how much resources were expended the last 
time. Because my understanding is that we did put some money--
additional money last time to try to get to the undercount, and 
I'd like get a full picture of that budget for last time, and 
then a projected budget for this time that will be comparable 
and/or--in terms of how to address that gap of that 3 million 
that occurred last time so it's not 3 million and it might--and 
it won't be worse. So I think--you know, and if you could maybe 
respond on that.
    Mr. Kincannon. Yes, Congressman. I can't respond fully 
about the life cycle--cost cycle in--cost estimate for the 2000 
census. I do know that first of all planning and testing was 
not carried out as thoroughly and systematically as it has been 
this decade. And then there were last-minute decisions, 
including one by the Supreme Court, about a year before census 
day that required an extensive revision of the procedures to be 
used in the field. Congress responded to those unusual 
circumstances by a significant infusion of money in the last 
two fiscal years which made a big difference in the success of 
that census.
    This time we began with recommendations from the Government 
Accountability Office and from the Inspector General at the 
Commerce Department that we begin earlier in our planning, that 
we test the options that we were planning, that we revised our 
plans based on the test results, and we have done that. We 
started testing earlier than ever before.
    This census will cost, in life cycle, about $12 billion. 
That's significantly more in nominal terms than the life cycle 
cost in 2000. But it is about $1 billion overall less than 
repeating the kind of census that we had for 2000. That census 
only gave us information for small areas one time in the 
decade. The plan for the 2010 census will give us observations 
every year for small areas, have a short-form-only census in 
2010, and have all the extensive automation that saves money 
and improves quality for about $1 billion less than repeating 
the old fashioned census.
    Mr. Rodriguez. And my understanding also that your--that 
your data is only as good as what you're able to obtain, for 
example, from the postal office. And the post office, I know, 
is having a real difficulty with their resources. You know, we 
didn't give them sufficient resources after the anthrax stuff 
that they had to go through, and they had to swallow that cost. 
Were there any expenditures that went into some of those 
other--like the postal and maybe other--in order to help out 
with the census that you're aware of the last decade?
    Mr. Kincannon. I'm not aware that we transferred any money 
to pay the postal service----
    Mr. Rodriguez. I'm sure you didn't, but do you know if we 
provided any resources to the postal----
    Mr. Kincannon. No, sir, I don't know that. I know the 
postal service has continued good cooperation with us, sharing 
with us their delivery sequence file which we use twice a year 
to review the address lists and improve them. They go through a 
number of exercises to make sure that we have the knowledge 
that they have, and that's very helpful.
    Congress changed the law in--before the 2000 census to 
permit us to share our address list with local governments; 
with mayors, with county commissioners, and with State 
governments, as a part of fact, so that they could point out to 
us where we might have missed housing units. After all, local 
knowledge is really--has to be better than our knowledge in 
many instances. I spent part of yesterday, about 3 hours, going 
around Frio County with Judge Garcia, and he had excellent maps 
pinpointing housing units and, of course, an extensive personal 
knowledge of the situation. I hope he'll come work on the 
census with us, and we're going to enlist what knowledge he 
has.
    Now, we will go to city governments, county governments, 
and State governments formally in August. We've already 
announced this program in the Local Update of Census Addresses 
[LUCA], and we will be formally beginning it in August. They 
can submit their--their information--their list of addresses to 
us in an automated form, and--we will then be able to check all 
of the additions that we make, the postal service makes, or 
local government makes, when we do the address canvas, going 
around every street and every block and every road in the 
country. So that's an important improvement in the address 
list.
    Mr. Rodriguez. Thank you. That was the exact question I was 
going to ask the Councilman, the Mayor Pro Tem Wolff, in terms 
of the 3 million undercount, in terms of how political 
subdivisions or cities, communities, and school districts can 
help in that process in terms of the undercount?
    Mr. Wolff. Well, certainly, you know, my answer is going to 
be very similar. You know, sitting here, I was thinking about 
something specific you had also asked in regards to the post 
office and funding and those types of things. And as I look 
toward, you know, certainly our limited means here at the city, 
those types of dollars and how we spend those, you know, I look 
at this quite frankly from a business decision model. If I can 
spend $100,000 to make $142 million, that's a pretty good 
investment, isn't it? Yeah.
    And so, when--when we're looking at opportunities to 
partner--whether it's with the, you know, local grassroots 
level, which you absolutely need--and really that's going to 
bring out the numbers--the honest numbers more than anything 
else. When you're looking at those opportunities, you know, if 
the question specifically is is the city going to be able to 
sort of step up to that plate and help participate, I think 
yes. And, you know, it will certainly have my support. Again, 
because of that simple business analogy, if I can spend some 
dollars today to make a lot more tomorrow, then it makes a 
whole lot of sense to do that.
    Mr. Rodriguez. I think that's a great recommendation when 
you talk to elected officials, you know, Director Kincannon--
what the Councilman just said. You know, no better argument 
then that. Thank you.
    Mr. Clay. Thank you, Congressman. Director Kincannon, you 
have outlined what appear to be very important and promising 
steps for the reengineered 2010 census. It is good to hear that 
the Bureau is attempting to be proactive in its planning. My 
concerns mainly involve a followup to what Congressman 
Rodriguez was saying, and that mainly involves securing funding 
for the Partnership Program and ensuring effective execution of 
the plan.
    What is the Bureau's plan for addressing those factors to 
reduce the undercount in the 2010 census, including in the 
colonias where the challenges may be greater?
    Mr. Kincannon. Well, we--we are planning an extensive 
communications campaign nationally, focused on particular--you 
don't conduct a communications campaign just at the national 
level with a single message. You have to tailor your message to 
localities and specific problems like the colonias. You have to 
respect a different language media and different communication 
channels that reach those areas.
    Language is an obstacle in the colonias, and that's where 
being able to mail a Spanish language questionnaire will help 
us a great deal. And employing local enumerators to followup 
for households that haven't returned the questionnaires who 
will be able to speak Spanish and will know the neighborhoods 
is very important.
    Colonias do not always have regular addresses, paved roads, 
all the identifying things that you're accustomed to in the 
center of a great city. In Frio County yesterday I learned that 
they have had the E-911 program carried out. They do have 
street addresses, house numbers, but I did not see house 
numbers on every house. And in some colonias in that county, 
the mail is not delivered to the house, but delivered to a 
central point. And those--those are complicating factors that 
make it difficult for us to find households and make sure that 
they're reported.
    So that means we'll have to take special steps to know that 
neighborhood and to be able to identify the household and 
perhaps use techniques such as update/enumerate or--in which 
case we actually update our addresses and drop off a 
questionnaire at the same time.
    Mr. Clay. Thank you for that. What modifications has the 
Bureau made to improve your reporting for detailed race and 
Hispanic origin questions? How will the modifications improve 
response rates?
    Mr. Kincannon. We tested, Mr. Chairman, a significant 
number of refinements, I would say. Not major modifications, 
but refinements in wording and examples. We tested different 
ordering of the questions to see which resulted not only in 
overall response, but in more accurate response about race and 
ethnicity. We were very careful with this.
    Last spring we presented the results of that research to 
all of our advisory committees. We have ten census advisory 
committees, five of them--six of them targeting the decennial 
census itself, and four other professional advisory committees, 
such as statistics, marketing, economics, and so on. They 
endorsed, based on the evidence we had gathered, the wording 
that we planned to use on the final census form in 2010. And 
that's what has been permitted--will be presented to the 
Congress next year for its review.
    We continue to get suggestions for change. We are very 
reluctant to make changes when we have not got research to 
understand the effect. We made a rather late change on the 
wording of the Hispanic questionnaire, the examples given, for 
2000, without additional testing.
    Congress was informed of this. Maybe only one or two 
Congressmen actually focused on that. But we went through the 
process of notification. The outcome was good and bad. It was a 
silver--it was a cloudless sky, but there was one little dark 
cloud. It improved the overall count of Hispanics, but for 
Dominicans, because the example had changed, the count of that 
community was not clear and not as accurate as it had been. 
We've taken a lot of justifiable grief about that result. So 
we're going to stand, God willing, with the tested proven 
results that we got in this time.
    Mr. Clay. Thank you for that response. Councilman Wolff, 
the four-point program of the San Antonio, Bexar County--
Complete County Committee is commendable. It appeared to be a 
model outreach program. What do you believe will be the biggest 
challenge--challenges facing the Bureau during the 2010 census?
    Mr. Wolff. Oh, I think it--I think probably the biggest 
challenge is something that Congressman Gonzalez pointed to 
earlier, and that is, you know, a level of fear, a level of 
distrust, and sort of breaking through those lines. And I think 
we've heard a number of times that the best way to attack that 
problem is really at that grassroots level, and why I think the 
model that we've utilized before is a good one, because it 
really does help us contact those local institutions; whether 
it's your church, whether it's your schools, whether it's your 
community centers, those types of areas, and really sort of dig 
in to the grassroots neighborhood. That's where we're going to 
get the work done, but that is also the biggest challenge.
    Mr. Clay. The Bureau is planning to mail bilingual Spanish/
English census forms to neighborhoods with people who might 
need language assistance in Spanish. What impact do you believe 
that this effort will have on reducing the undercount in the 
Hispanic community?
    Mr. Wolff. I think it will help in that you're leading with 
the language that is most important to the individual that's 
going to be receiving it. However, I think that has to be 
coupled with the notice in the community from the community 
leaders within that particular area the, you know, this is 
something they need to respond to. This is very important. And 
so it's--and I'll say again, that's why this grassroots level 
is very important. You have to--you have to reach those 
individual community leaders at the same time that you're doing 
this. That way, you know, when it's in the mail and you get it 
in the mail, you've already heard from your priest. You've 
already heard from your local community leader that, ``Hey, 
this is coming. You need to pay attention to it, and you need 
to respond to it.''
    Mr. Clay. So it needs to be a multipronged approach.
    Mr. Wolff. Absolutely.
    Mr. Clay. We need to be involved in it. You note in your 
testimony that the city of San Antonio and Bexar County 
partnered on promotion efforts in 2000 and worked with the 
Census Bureau's Publicity Office in that effort. Based on your 
experience, what improvements in the Partnership Program might 
you recommend?
    Mr. Wolff. Wow. Let's see. It's--because I was not here 
when we did that initial one, it would be difficult for me to 
say specifically what sort of improvements. I can tell you that 
especially here recently we have seen a partnership between the 
county of Bexar and the city of San Antonio, quite frankly, 
like we have never had before, which I think bodes very, very 
well. [Laughter.]
    Mr. Gonzalez. I understand family affairs and so does 
Congressman Clay, whose father was in Congress before for over 
30 years. So we're glad that you and your dad are able to get 
the county and the city on the same page.
    Mr. Wolff. I was--I was actually referring to that County 
Judge who I might be related to, and the mayor. I'll tell you, 
the friendship and partnership between those two individuals 
has, I think, done tremendous--for this city and really paved a 
path in city-county relationships that I quite frankly think 
will go forward.
    That being said, in direct answer to your question, we have 
the model. It's being able to make sure that we can sort of, 
you know, cross our own little bridges and blockades between 
governmental entities. That's probably going to be the biggest 
challenge, and it always is, as you gentlemen know as well.
    Mr. Clay. Thank you for your response. Mr. Gonzalez, do you 
have any more.
    Mr. Gonzalez. I just wanted--and only the Director can 
actually address this one. And it was a question that one of 
the reporters that was interviewing me this morning so that it 
would be reported--and in San Antonio, we do have a large 
Spanish language media, obviously, and that's the way many of 
the households that would be identified as undercounted are 
probably going to be receiving that information. And we know 
there's going to be distrust. We know there's a lot of anxiety 
right now in the communities that generally would be 
undercounted.
    But addressing that, when that census--when the person 
actually is in that neighborhood--because we're assuming the 
undercount is taking place because individuals have not mailed 
back forms and so on. So we have more personnel on the ground 
that are trying to gain the information one on one. The concern 
is always are you going to answer the door?
    That individual is going to introduce themselves, and 
they're going to have to have some sort of--you know, whether 
it's their identification and such. If you can just--as basic 
as this sounds, it is really important that individual that is 
at that door is, first of all, associated, an employee with the 
census. What is the official documentation or proof that they 
have? Any standard operating procedure? And again, if you would 
remind individuals that the information that is gathered at 
that moment is not shared with any law enforcement, 
immigration, any agency or department of that nature?
    Mr. Kincannon. The followup enumerator who comes to the 
door when a household has not returned its questionnaire will 
have a standard credential identifying them as an employee of 
the Census Bureau and, therefore, they will have taken the oath 
of office which binds them for the rest of their life to hold 
secret the information that they collect. They will be trained 
in that. They should be able to articulate that. There will be 
a lot of advertising in English, in Spanish, in other languages 
as well, communicating that confidentiality pledge that the 
Congress has made by passing the law that set it up. And we--we 
conform to that.
    But it must--it is a message that--although it needs to be 
said on the doorstep by a person who knows the language of the 
area, who knows the makeup and the culture of the neighborhood, 
but it must be reinforced by community leaders; the priest, the 
rabbi, the minister, the imam, whatever--the union leaders, 
club leaders, so on. That has to reinforce that, ``Yes, I know 
about it, and I can endorse it.''
    Mr. Gonzalez. Thank you very much.
    Mr. Clay. Congressman Rodriguez.
    Mr. Rodriguez. Yeah, one real quick one. I want to followup 
on what Congressman Gonzalez--his initial question. To your 
knowledge, has there been any lawsuits or any requests by the 
administration or anyone regarding the number of illegals or 
anything like that of the Census Bureau, or lawsuits?
    Mr. Kincannon. I don't think there's been any lawsuits, to 
my knowledge, against the Census Bureau or the administration.
    Mr. Rodriguez. No cases pending.
    Mr. Kincannon. We don't have any cases pending on the issue 
of identifying illegals. I'm aware of proposed legislation 
that's been introduced but not acted on in the House, and I 
don't know that--it hasn't been acted on for some time. So 
that's encouraging. There's a long legal precedent of--dating 
back to 1790, of counting everybody who is really living here, 
eating and sleeping here most of the time, and not just 
visiting on business or as a tourist, is a very substantial 
accumulation of precedent. It could be changed by legal--by a 
new law being passed. I don't know that it could be challenged 
successfully. I'm not a lawyer myself. But it would seem to be 
hard to challenge a precedent set in law in the Census Act of 
1790 when so many participants in the Constitutional Convention 
were Members of that Congress and knew what they intended for 
sure.
    So that has been no--certainly no request of people within 
the current administration, to my knowledge of the Census 
Bureau, that we change our practice of counting everybody. A 
lot--a lot of folks in this administration are from Texas----
    Mr. Rodriguez. Where does the figure that we use now of 12 
or 14 million that Ron documented come from?
    Mr. Kincannon. I think the most often quoted figure comes 
from estimates made by the Pew Trust, Jeffrey Pacell, who 
worked many years at the Census Bureau, does work for them. 
It's credible work. It goes farther out on a limb with 
assumption than the Census Bureau does. We don't try to measure 
whether an immigrant is here illegally. We do not ask in the 
census short form about citizenship, let alone legal status. We 
do ask about citizenship in the American Community Survey, but 
we don't ask about illegal status. I'm not sure that if the 
Congress directed us to do that by law we would be successful. 
Can you manage asking somebody, ``Are you here legally or 
illegally?'' Well, you know, who is going to answer that?
    Mr. Rodriguez. Thank you.
    Mr. Clay. Thank you so much for that interesting question. 
Director Kincannon, in your testimony, you state that the 
Bureau is now integrating planned improvements into the 2008 
dress rehearsal. What are some of the improvements, and how 
will they help to reduce the undercount in the Hispanic 
community?
    Mr. Kincannon. Well, I think the improvements I've 
mentioned already in terms of use of automation, the hand-held 
computers, will enable the nonresponse followup interview to 
toggle between English and Spanish; the use of the short-form 
census, which is much easier for people to complete, not as 
demanding or complex in the case of a large family; work on 
address list improvement and the maps that we use for the 
census, which has been ongoing from the--from 2001--it began in 
2001--to improve the maps, to centerline the roads in the TIGER 
map system; and the work now reaching--just about to reach 
fruition on updating the address list, which is a multi-phase 
exercise.
    You know, the census is built basically around a list of 
housing units where people live. We can't just ask people 
standing in the street, you know, ``What's your name, and we'll 
count you.'' We need to pin them down to where they live, 
because for the constitutional purpose of the census, 
redistricting--reapportionment and redistricting, there is a 
desire--a requirement for geographic exactitude. So we're 
dependent on having a good list of addresses.
    Mr. Clay. Thank you for that response. As we have heard in 
previous hearings, there is some concern that the Bureau will 
not have sufficient time to implement the changes required 
after the 2008 dress rehearsal. Does the Bureau have an 
implementation plan that will enable it to make the necessary 
adjustments from the dress rehearsal in a timely manner?
    Mr. Kincannon. Well, yes, sir, we think so. We are already 
reacting to what we're learning from the early phase of address 
canvas in the dress rehearsal, where we found that there were 
some shortcomings in the software on the hand-held computers. 
The hardware itself was fine, which is good because we'd 
otherwise have a difficult problem to deal with. The software 
changes can be made one time in one way in order to correct 
those difficulties.
    Some of the changes were simple and just a matter of 
unsuccessful communication between the Census Bureau and the 
contractor about the way certain aspects of the work would 
come. Others a little more difficult but are going to be 
solved. And I think we're finding that helpful and that we're 
going to be able to deal with those kinds of problems as 
they're identified during the dress rehearsal.
    Mr. Clay. Both of you, how important is it for the Congress 
to appropriate the necessary funds in 2008--in the fiscal year 
2008 for the 2010 census?
    Mr. Kincannon. In the 2000 cycle of the census, only about 
6 percent of the funds for partnership were appropriated in 
1998. The rest of it--the bulk of it was in fiscal 1999 and 
fiscal 2000. It's useful if we have some money on partnership 
in 2008, but it did not seem to us to be a sword on which we 
wanted to fall for 2008. It's essential we have the funding in 
2009 and 2010, because that's when everything roles out into 
workers in the field.
    We already had money in 2007 and in the proposal for 2008 
for the planning of partnership. It's the extra funds for 
rolling it out and hiring people in the regions that has to be 
done. And if the House mark of adding $13 million comes--comes 
to pass--the Senate has not matched that so far--then I think 
that would be very helpful in getting the head start that we 
need to ensure that those connections that we have with many 
national and local organizations are solidified. We have 
continuing work throughout the decade on partnerships, but it's 
at a very low level, and that's not inappropriate. But it's--
the time is scaling up. The sooner you start, perhaps the 
stronger your position.
    Mr. Clay. Thank you. Mr. Wolff.
    Mr. Wolff. Without knowing the specifics of the budgetary 
cycle for the department, it's hard for me to say specifically. 
But let me--let me give another business analogy. You know, do 
it right the first time. You know, if you know that you're 
going to need X and it's going to take Y to get X, then why 
mess around with anything else? You know, if it's going--and 
I'm--I feel quite confident that he will be able to give you a 
budget that says, ``This is X. This is what we need.'' And, you 
know, getting out in front of this saves you a heck of a lot 
more money on the back side. I mean, and that's--and that's my 
business analogy. In other words, do it right the first time. 
Otherwise, what you're going to find as you get down toward the 
end, he's going to be coming back to the table and saying, ``I 
need twice as much as I needed before because we started so 
late.'' So do it right the first time.
    Mr. Kincannon. I'm getting to be a bit long in the tooth, 
but I do have some interesting experience to speak from.
    In 1980, I was working at OMB, not at the Census Bureau, 
and the Census Bureau requested, during fiscal 1980, some extra 
emergency cushion funds in case of unforeseen events. I don't 
know whether--I don't remember whether it was OMB or the 
Congress that didn't provide that money, but in fact exigencies 
occurred, and we ran out of money in fiscal year 1980, and we 
had to shut down local census offices, processing centers, and 
so forth, for a period of a number of weeks before we got an 
emergency appropriation through, which was difficult enough in 
1980. And it's just about impossible now. We never recovered 
from that loss of weeks. The census products were not weeks, 
but years late in coming out as a consequence.
    In 2000, we were given an ample cushion of money. As it 
turned out, few emergencies occurred, and the mail response 
rate was higher than we had experienced in three previous 
censuses. Therefore, we were able to return to the Congress 
$300 million that we did not spend. In that one little brief 
period of time, it made the appropriation staff in the House 
and the Senate very irritable because they had to work hard to 
get that $300 million. But I still think it was better to have 
it and not use it. And I hope that lesson is--we all remember 
for 2010.
    Mr. Clay. You covered a 30-year period there, from 1980 to 
2010. You have a depth of experience. Gentlemen, any other 
questions for this panel.
    Mr. Rodriguez. If I could just briefly followup on what 
you've indicated. We've been having floods, fires, disasters. 
You know, I would just, you know, ask you that you get to us as 
quickly as possible if something occurs that's going to create 
a difficulty. Because I know that if you have a major flood in 
a community or a State that gets impacted during the time of 
the census, that's going to--I mean, nobody is going to be 
thinking about the census. So you really need to come to us as 
quickly as possible, and/or even look at the supplemental as an 
emergency response as early as possible to--if you can foresee 
some of that occur--not foresee some of that, but in terms of 
the areas where they have already occurred, that you foresee 
some difficulty in getting access to those addresses and those 
households, you know, I would appreciate it. OK? Thank you.
    Mr. Clay. That concludes the testimony of panel 1. Let me 
again thank you both for being here, and we will--this panel is 
excused. And we will now set up for panel 2. Thank you.
    [Recess.]
    Mr. Clay. The subcommittee will come back to order to hear 
from our second panel. Our second panel will include Steven 
Saldana, president of the Catholic Charities Archdiocese of San 
Antonio--thank you for being here--and Arturo Vargas, executive 
director of the National Association of Latino Elected and 
Appointed Officials Educational Fund--so good to see you, sir--
and L. Diana Bennett, president and CEO of Kineta Corp. in 
Charlotte, NC. Welcome, Ms. Bennett. Thank you for being here--
and Lydia Camarillo, vice president of the Southwest Voter 
Registration Education Project based here in San Antonio, TX. 
Welcome, and welcome to all of you. Thank you for being with us 
here today. Ms. Bennett and Mr. Vargas, I know you had to 
travel long distances to be here, and we appreciate it.
    It is the policy of the subcommittee to swear in all 
witnesses before they testify. Would you all please stand and 
raise your right hands?
    [Witnesses sworn.]
    Mr. Clay. Let the record reflect that they have all 
answered in the affirmative. Each of you will have 5 minutes to 
make an opening statement. Your complete written testimony will 
be included in the hearing record. We will indicate when you're 
getting close to your 5 minutes. We will begin with Mr. 
Saldana. Please proceed.

  STATEMENTS OF STEVEN SALDANA, PRESIDENT, CATHOLIC CHARITIES 
ARCHDIOCESE OF SAN ANTONIO; ARTURO VARGAS, EXECUTIVE DIRECTOR, 
NATIONAL ASSOCIATION OF LATINO ELECTED AND APPOINTED OFFICIALS 
 EDUCATIONAL FOUNDATION; L. DIANE BENNETT, PRESIDENT AND CEO, 
    KINETA CORP., CHARLOTTE, NC; AND LYDIA CAMARILLO, VICE 
   PRESIDENT, SOUTHWEST VOTER REGISTRATION EDUCATION PROJECT

                   STATEMENT OF STEVE SALDANA

    Mr. Saldana. Thank you Chairman Clay. It's a pleasure to be 
here to be able to speak in front of you, especially in front 
of Congressman Gonzalez and Congressman Rodriguez. Thank you 
for allowing me to say a few words on what is a very important 
process to U.S. census. There is a great concern as to the 
nature of the process and whether there is a real desire to 
locate and register everyone in the country.
    I would like to separate for a moment the political issue 
of documented and undocumented peoples. It is widely understood 
that people come from all over the world to the United States 
looking for a better way of life. Regardless of how they get 
here, they eventually marry U.S. citizens and have children who 
are U.S. citizens. These spouses and children are guaranteed 
under the law the access to benefits approved by the 
government.
    The census is critical to the Federal distribution of funds 
for allowed benefits. What may not be widely recognized is that 
not only does the undocumented individual fear governmental 
processes, but the whole family fears them as well. Naturalized 
citizens are put in a state of fear to protect loved ones who 
are not documented. This fear affects their participation in 
processes, such as the census, to which they are entitled. This 
fear then leads to an undercount of the peoples in an area such 
as Texas. This undercount leads to less Federal funds and to a 
general deteriorating of the well-being of the community.
    How, then, to help overcome this distrust and get an 
accurate count? Practice has shown than there are institutions 
that the families of mixed legalities do trust. One of these 
institutions is the church of their belief. Statistically the 
church that represents the largest block of Hispanics is the 
Catholic church, but my remarks can be general to all churches. 
It is vital that faith-based systems be heavily used in the 
outreach for the census process. This use must be active and 
not passive. Priest and ministers must be encouraged to 
actively state that the census process must be participated in. 
Posters and bulletin inserts must be used over and over to 
convince individuals that the census participation will not put 
them at risk.
    I urge one more thing. During the last census, the 
government sent mixed signals. While publicly proclaiming that 
all people were hoped for during this census process, the 
immigration service was conducting widespread raids and 
roundups. This had the obvious effect of depressing 
participation. The natural fear and distrust of the government, 
coupled with raids, tells the Hispanic community that you do 
not really want them to register. I urge you to demand a 
moratorium on such raids during the census process. Only by an 
open and fair process, one completed without fear, can the 
census truly have meaning. Thank you.
    Mr. Clay. Thank you very much.
    [The prepared statement of Mr. Saldana follows:]
    [GRAPHIC] [TIFF OMITTED] T2899.011
    
    Mr. Clay. Mr. Vargas, you may proceed.

                   STATEMENT OF ARTURO VARGAS

    Mr. Vargas. Thank you, Mr. Chairman. I'm Arturo Vargas, 
executive director of the NALEO Educational Fund. We're a 
nonprofit, nonpartisan organization that facilitates the full 
participation of Latinos in the American political process. As 
such, our mission includes the census as a core element. And I 
should acknowledge was a contemporary of your father, Mr. 
Chairman, and your father, Mr. Gonzalez, the late Congressman 
Edward Roybal founded this organization with the vision that an 
organization promote the full participation of Latinos in the 
American political processes, and the census is an element of 
that.
    I'd also like to applaud the nomination of Dr. Steven 
Murdock to be Director of the Census Bureau. We have endorsed 
this nomination. And we also thank Dr. Kincannon for the work 
that he has provided in his leadership. We urge a speedy 
confirmation by the Senate of Dr. Murdock because time is of 
the essence.
    Since 2000, we have served on the Secretary of Commerce's 
2010 Advisory Committee, or its predecessor, and we have 
enjoyed a long working relationship with the Census Bureau. So 
my recommendations here are based on our more than 20 years of 
experience working with the Census Bureau.
    But let me just say at the beginning that to ensure an 
accurate count of our Nation's population, an accurate count of 
the 44.3 million Latinos who are now the Nation's second 
largest population group, and the fastest growing, is 
imperative. An undercount of such a large segment of the U.S. 
population will mean a failed census. You cannot have a good 
census if you don't have a good enumeration of the Latino 
population. So we offer the following recommendations.
    One, is Census Bureau must develop effective outreach and 
education partnerships with community based organizations that 
the Latino community trusts, building on the successes and 
experiences of census 2000. I think this issue has already been 
developed in the testimony presented by Dr. Kincannon; however, 
I would add that we were deeply concerned that the 
administration did not include funding in its budget request 
for the Partnership Program in fiscal year 2008. And we 
congratulate the leadership of the Commerce, Justice, Science 
and Related Agencies subcommittee of the House Appropriations 
Committee to allocate $13 million for this effort in 2008. This 
effort must begin now.
    No. 2, the Census Bureau must implement a communications 
and outreach plan that uses culturally appropriate outreach 
materials that takes into account the special challenges in 
reaching certain Latino subgroups and other hard-to-reach 
populations. Again, Director Kincannon has worked--described 
this, but I would mention to the committee is that in the fall, 
the Census Advisory Committee will have a meeting where the 
focus of the agenda will be on the communications plan. So I 
would encourage your offices to attend that meeting so that we 
can all be together briefed on the Census Bureau's plan for its 
communication strategy in 2008.
    Third, special strategies and preparations will be required 
to enumerate the Nation's immigrant population, regardless of 
their status. And I'm glad that this issue already has been 
raised, but I believe that the Census Bureau and the 
subcommittee should not underestimate the challenge that we 
will have. The current debate and its tenor has already 
complicated the situation in the United States.
    Many States and localities are considering measures 
intended to target immigrants. Some of these measures require 
local law enforcement agencies to enforce immigration laws. 
Others require apartment owners to check the immigration status 
of potential renters. This has created a climate which will 
exacerbate immigrants' distrust of contact with government, 
including the Census Bureau. Undocumented immigrants, legal 
permanent residents, and even U.S. citizens who live in 
households where family members have varied status of 
immigration will be discouraged from answering the census. The 
anti-immigrant climate today will harm confidence in the 
confidentiality of the Census Bureau and promote the belief 
among many residents that the Bureau will use the information 
in a way that will harm them.
    Now, we have seen local governments and even private 
citizens take the law into their own hands. We have seen 
efforts by the Minutemen to enforce border laws. We have seen 
efforts by cities to enforce Federal immigration laws. I do not 
believe it's unimaginable that we will see perhaps private 
citizens try to take the law into their own hands and prevent 
the Census Bureau from enumerating all persons and all 
immigrants. I will call upon this committee to review what is 
now on the books in terms of prohibiting interference with the 
actions of the Census Bureau to ensure that the Census Bureau 
can carry out its constitutional duties without the 
interference of private citizens, or even local localities who 
may not want to see all immigrants counted in the census.
    We call upon the Census Bureau to begin working with the 
Immigration and Customs Enforcement Agency [ICE], to limit its 
enforcement activity during the descending enumeration. This 
happened during census 2000 with the predecessor agency, the 
Immigration Naturalization Service.
    With the failure of the U.S. Senate to enact comprehensive 
immigration reform, we already have heard from Secretary 
Chertoff, the Director of Homeland Security, that we will see 
an increase in the enforcement activities and raids that have 
separated parents from their children. This will only make the 
situation worse and contribute to distrust in the census come 
2010.
    Fourth, the Census Bureau must ensure that its census 2010 
work force reflects the diversity of its population. And it's 
not just about making sure that enumerators reflect the people 
that they're counting, but managers of the district offices, 
people in decisionmaking roles at the Census Bureau need to 
reflect that population as well. Many local offices are now 
opening or preparing to open. Office directors must reflect the 
local community as well.
    It is one thing to ensure that we have Spanish-speaking 
enumerators in San Antonio or the Valley. It's another thing to 
ensure that we have Spanish-speaking enumerators in North 
Carolina, in Tennessee, and in Arkansas. This will be the areas 
of real challenge for the Census Bureau to ensure that work 
force in those communities have the cultural competency to 
actually enumerate those on populations.
    So one of the things that the Bureau should work on is 
securing a waiver in its hiring practice that would allow work-
authorized noncitizens to take on enumerator positions. Right 
now U.S. citizenship is required to have a Federal job, and 
being an enumerator is a Federal job. But in many local 
communities, there will not be sufficient U.S. citizens with 
the language skills necessary to conduct the work of the Census 
Bureau. So we believe the Census Bureau should act now to 
secure a waiver of that requirement.
    And finally, the Census Bureau must be able to act quickly 
to adjust its plans based on the outcomes of the 2008 dress 
rehearsal. The dress rehearsal will occur in the San Joaquin 
County, CA and certain counties in North Carolina. This will be 
the first time that in an actual census setting we see new 
features such as the mailing of bilingual questionnaires, 
targeted replacement mailing, and new technologies, including 
hand-held computers and global positioning software.
    The Bureau must be able to be nimble and act on changes 
that will be required based on the outcomes of the dress 
rehearsal. We have already heard that the Bureau is reluctant 
to make any changes to the census form without sufficient 
testing because they don't want to make previous mistakes. We 
hope that kind of consciousness doesn't carry over into the 
results of the 2008 dress rehearsal. That will be our final 
opportunity to act on changes needed based on what worked and 
did not work in the field.
    Finally, I will call upon this committee to continue to--
its vigilance, not just with this annual census, but also with 
the implementation of the American Community Survey. Many of 
the same issues that affect the annual census, affect the 
American Community Survey, and that is conducted every single 
year, where 3 million households are sent what is now the 
equivalent of the long form. Thank you, Mr. Chairman.
    Mr. Clay. Thank you, Mr. Vargas. Appreciate that testimony.
    [The prepared statement of Mr. Vargas follows:]

    [GRAPHIC] [TIFF OMITTED] T2899.012
    
    [GRAPHIC] [TIFF OMITTED] T2899.013
    
    [GRAPHIC] [TIFF OMITTED] T2899.014
    
    [GRAPHIC] [TIFF OMITTED] T2899.015
    
    [GRAPHIC] [TIFF OMITTED] T2899.016
    
    [GRAPHIC] [TIFF OMITTED] T2899.017
    
    [GRAPHIC] [TIFF OMITTED] T2899.018
    
    Mr. Clay. Ms. Bennett, you may proceed.

                 STATEMENT OF L. DIANE BENNETT

    Ms. Bennett. Thank you, Chairman Clay, Mr. Gonzalez, and 
Mr. Rodriguez. I am here today--and I'm not going to prolong 
this hearing talking about the importance of the community 
Partnerships Program or the significance of doing just 
something extra to make sure that the differential undercount 
is reduced. I am going to talk today and share some 
observations and also some recommendations based upon past 
experience, lessons learned.
    For census 2000, I acted as the special assistant to the 
Director of the Census Bureau and also as special assistant to 
the Associate Director for field operations. My primary 
responsibility was the Partnership Program. For a brief moment, 
I was acting partnership coordinator. I selected the then 
current chief of partnerships and her deputy, who is now the 
chief of partnerships. So what I wanted to share today is some 
very practical--I believe some very practical observations and 
recommendations consistent with what many of my distinguished 
panelists have already mentioned, but I wanted to talk about it 
from the other side. Because as I said, in 2000, I was a part 
of that team. Every partnership decision that was made in 2000, 
I was at the table. I can tell why they were made, and I can 
tell you under what circumstances they were made. I'm not 
guessing. I'm talking about my experience, and that's what I 
want to share with you today.
    One of the clear things that kind of distinguishes this 
census and the preplanning that leads up to it from census 2000 
was--and Dr. Kincannon alluded to--the dual tract census 
planning that was going on. The great thing about that--
although we were overworked, the great thing about that was the 
Congress, as you know, Mr. Gonzalez, gave us a robust budget to 
do that. We were doing dual track censuses, and we had dual-
track planning going on, and we had the money, the resources to 
do that. And that's one of the things that I want to talk about 
today.
    The other piece that the Congress said to us was when you 
talk about all the challenges that these organizations are 
going to face and the undercounted communities are going to 
face, the mandate that they gave us was very clear. Be 
innovative and be aggressive, and it takes money to do that.
    So, if I may, everything that people are going to talk 
about at this hearing is going to be very clear, is going to be 
very important. But these realities are very different, 
depending upon where you go. In San Antonio, where the 
predominant population here is Hispanic--you go to some other 
areas of the country, it is not that way. But from where I come 
from--I'm from North Carolina--we are a predominantly rural 
State. And some of the--some of where our largest growth has 
been experienced with the Latino population has been in rural 
areas, where that population has blown to 300 percent in some 
areas. Those communities don't have the infrastructure of 
Catholic charities or some of the--MALDEF, some of the other 
organizations that are in place in larger cities. So what you 
need is an effective Partnership Program that can do the kinds 
of things that need to be done at the local level.
    Now, when we talk about partnerships, to say we're going to 
engage partners, that's pretty easy to say, but it's a 
difficult process and it's a long process. It takes a lot of 
time, a lot of preparation to do that. So some of the things 
that I'm going to talk about today are centered around three 
points, No. 1, resources; No. 2, timing, timing. No. 3 is 
engagement, effective engagement. It's just not enough to say, 
``We're going to go out there and do partnerships.'' Anybody 
that's worked in the community knows that is real different. 
And there's a greater challenge now with the immigrant--the 
immigrant debate that's going on all over the country. With the 
challenges in the black community, with the challenges in the 
Arab community, with all of these challenges that are taking 
place across the board, we cannot afford as an agency--and I 
sometimes slip back and forth between my census life and my 
real life now--but we can't afford to make those kinds of 
errors in judgment.
    The Director talked about great planning, and the Census 
Bureau is the best in the world at that. But no plan, no 
strategy, no initiative is as good as the assumptions that 
they're based upon. And to say that the communications strategy 
is come in and all is right--no, it is not. The communication 
strategy is a national initiative. It's a national strategy. 
They're going to set the message, set the tone. But then it has 
to filter down to these organizations. They're the ones that 
are going to have to make it work, and that's what I want to 
talk about today.
    First, the funding issue. I believe that the Partnership 
Program needs to be funded now. We talked about 2008, putting 
the Partnership Program in the budget for 2008, but let me give 
you a scenario. If the Partnership Program is only funded in 
2008, meaning October 2007, what happens to those regional 
offices--there are 12 regional offices. It will take them 
several months to ramp up, to identify the right staff--because 
we hire indigenously. We hire people from the Latino community. 
We hire people that have the language skills and the cultural 
connections and the networks in those communities to be 
effective. We've got to find them. We've got to advertise. 
We've got to recruit. It takes time to do that. We've got to 
train them. So, if the Bureau is forced to wait until October 
2008--just for the sake of argument, say it takes them 6 months 
to hire and train. That's 6 months we've lost. Then we have to 
deal with community-based organizations. We have to engage them 
and bring them along.
    To dovetail back into my comment about the communication 
strategy. The communication strategy, they're talking about an 
integrated focus. We did integrated strategy in 2000. But the 
key element of an integrated strategy is the Partnership 
Program. How do we just dump a communications strategy on a 
community and they don't know anything about it? We have to 
bring them along. This is the most important element of the 
census 2000 outreach campaign is the Partnership Program. It is 
these organizations being engaged early enough in the process 
with the right resources to do it their way. Everywhere you go 
you're going to have similar challenges expressed to you. If 
you're to take this tour all over the country, you're going to 
hear basically the same kind of challenges. Local problems 
require local solutions. No matter how well meaning 
headquarters is--and I used to be a headquarters person, but I 
was also a regional person. I was a regional partnership 
specialist and a regional partnership coordinator.
    So I would beg you to fund the Partnership Program. And 
I'll throw a number out there. I'm a numbers person. Give the 
Partnership Program--give the Census Bureau $3 million now to 
start hiring. We have to identify the right people. Then in 
2008, make sure that we're in the budget--a robust budget.
    Moving on to Item No. 3 is to provide in 2009 funding for 
special initiatives. In census 2000, the Congress gave us 
approximately $14 million that we used for what we call in-kind 
programs and also for special initiatives. That was critically 
important for areas like the colonias because Alfonso Meribal 
down in Dallas--I know you know Al. Al did a very comprehensive 
campaign for the colonias, in getting those folks educated, 
getting them motivated to complete the census questionnaire. 
But that was all as a result of the special initiatives that we 
got. And I know my time is running out quickly. OK.
    Mr. Clay. Let's conclude.
    Ms. Bennett. OK. In conclusion, all partners and 
stakeholders depend upon the Census Bureau and this Congress 
for honesty. Partners and stakeholders representing our hard-
to-enumerate communities need the Bureau and this Congress to 
remember them, their contributions and their impact. The 
Bureau's success as the premier statistical agency in the world 
is tied to its ability to count everyone, no exceptions. 
Decennial enumeration and operations are difficult. Politics 
are complicated. Accountability and civic responsibility are 
not. And you owe it to these communities.
    Mr. Clay. Thank you so much, Ms. Bennett. We appreciate 
that.
    [The prepared statement of Ms. Bennett follows:]

    [GRAPHIC] [TIFF OMITTED] T2899.019
    
    [GRAPHIC] [TIFF OMITTED] T2899.020
    
    [GRAPHIC] [TIFF OMITTED] T2899.021
    
    [GRAPHIC] [TIFF OMITTED] T2899.022
    
    [GRAPHIC] [TIFF OMITTED] T2899.023
    
    [GRAPHIC] [TIFF OMITTED] T2899.024
    
    [GRAPHIC] [TIFF OMITTED] T2899.025
    
    [GRAPHIC] [TIFF OMITTED] T2899.026
    
    [GRAPHIC] [TIFF OMITTED] T2899.027
    
    [GRAPHIC] [TIFF OMITTED] T2899.028
    
    [GRAPHIC] [TIFF OMITTED] T2899.029
    
    [GRAPHIC] [TIFF OMITTED] T2899.030
    
    [GRAPHIC] [TIFF OMITTED] T2899.031
    
    Mr. Clay. Ms. Camarillo.

                  STATEMENT OF LYDIA CAMARILLO

    Ms. Camarillo. Good morning. How much time do I really 
have? Buenos dias, Chairman Clay and Members Gonzalez and 
Rodriguez, distinguished panelists, and members of the 
audience. I am Lydia Camarillo, vice president of Southwest 
Voter Registration Education Project, the Nation's largest 
nonprofit/nonpartisan organization of its kind. Since its 
inception, we have registered 2.3 million Latinos. Thank you 
again for the opportunity to testify before you.
    Southwest Voter urges Congress to utilize the full 
congressional oversight authority to ensure that the Federal 
Government meet its constitutional mandate to count every 
person in the United States. We urge Congress to protect and 
uphold the constitutional obligation. Therefore Southwest Voter 
urges the Census Bureau count--that the Census Bureau count 
every person in the United States, regardless of their legal 
status, that the necessary resources be provided to the Bureau 
so they can meet this constitutional responsibility.
    Article 1, Section 2, and the 14th Amendment of the U.S. 
Constitution require that every person be counted every 10 
years through the Bureau, regardless of whether they're legal 
or not. This responsibility falls on the U.S. census.
    An accurate count is essential for three reasons. First, it 
provides Congress with the necessary population data from which 
to determine how to apportion Congress representatives among 
the States. Second, it provides State and local government 
population data to assist in the redistricting of State and 
local government representation districts. Third, it allows the 
Congress and the Federal Government to allocate financial 
assistance among the States. In addition, the census data 
provides a wealth of information on population growth patterns, 
demographic information, and statistical data to assist 
government, opinion leaders, and policymakers, in the shaping 
of public policy and legislation.
    Historically, an incomplete, inaccurate census count denies 
Latinos and other communities of color their constitutional 
right to fair representation at all levels of the government. 
An inaccurate count also deprives Latinos of the proper 
allocation of Federal resources which are needed to assist such 
communities to form some public policy to solve or alleviate 
such issues facing the Federal, State, and local government, 
including county, State, school boards, water boards, and so 
forth. An undercount of the Latino and other ethnic communities 
must be prevented, cannot be justified or excused in this, the 
wealthiest country in the Nation. And if the IRS knows how much 
we owe them, we should be able to count everybody.
    In the last census enumeration, over 3.3 million 
individuals were left uncounted. The Census Bureau estimated 
that at least 1 million Latinos were not counted in 2000, in 
spite of the numerous partnerships with the Latino community. 
Bureau efforts to count every person and the statistical 
adjustment of the census count, the undercount resulted in the 
loss of at least three congressional seats during the 
redistricting process in States like Texas, California, and 
Florida. Moreover, Latinos also came up short during the 
redistricting process of States and local municipalities 
including school districts and other political subdivisions. 
Thus, undercounts are unacceptable and must not be tolerated.
    Southwest Voter urges Congress, through its oversight 
function, to ensure that undercounts are not repeated in the 
2010 count. It violates the U.S. Constitution.
    The 2000 undercount of Latinos resulted in the loss of our 
communities of thousands of Federal dollars that should have 
been used at the State and local levels. The loss is 
unconstitutional and should not be accepted as common practice 
by the Federal administration. Moreover, the U.S. Congress 
should be diligent to prevent this type of behavior as common 
practice. It is up to Congress to make sure that the U.S. 
Constitution is upheld.
    Over the decades, the Census Bureau has made an important 
commitment to work with National, State, and local nonprofit 
organizations in an accurate count of all persons in the Latino 
community, including citizens and noncitizens and those without 
legal status. Southwest Voter urges Congress to continue this 
practice and hold the Census Bureau accountable for a full and 
accurate count of all persons in the United States.
    The Latino community and its leadership can be helpful 
partners in promoting the census among the community. Latino 
leaders and organizations stand ready and committed to inform 
Latinos about the importance of participating in the census to 
ensure a full and accurate count. But this does not mean that 
the Census Bureau or Congress can skirt its constitutional duty 
or shift the burden of inaccurate count on Latino communities 
and local communities. Latino national organizations are 
prepared to advise and promote the importance of the accurate 
count; however, Latino leaders will hold the Bureau and 
Congress to its constitutional obligation and mandates so that 
every Latino living in the United States at the time of the 
count is counted.
    Furthermore, the Latino elected leadership will hold 
Congress responsible for its oversight on the census--on the 
count. An accurate and full count will depend on the Federal 
Government's ongoing actions over the next years. Should the 
Federal Government's actions contradict its assurance of a full 
and fair count such that Latinos in our community feel they 
cannot trust the Federal Government gathering information, the 
results, I assure you, will be the communities of color not 
willing to participate in the census count.
    The Federal Government must honor its mandate to count 
every person with absolute discretion, confidentiality, and 
privacy. The information obtained during the count must be 
devoid of the current anti-immigrant sentiment that exists in 
our political climate. When our Federal agency--in this case, 
the Census Bureau--wants the Latino community to trust it and 
provide it confidential information, and other agencies such as 
ICE are conducting immigration raids.
    These acts and actions only serve to relay the message that 
the Federal Government cannot be trusted to honor its work to 
maintain confidentiality. These actions will result in 
hundreds, if not thousands, of Latinos not taking part in 
completing their census forms, a repeat of what took place 
within the Latino community in the 1980's, not trusting the 
Federal Government, not taking part in the census enumeration. 
Therefore, the Federal Government, all its agencies must create 
an environment of trust and confidence within the Latino 
community and other ethnic communities.
    Southwest Voter makes the following recommendations based 
on the lessons learned over the last three census enumerations 
and applauds those efforts if they are incorporated or once 
again use. We encourage the U.S. Census Bureau to fulfill its 
constitutional requirement according to the U.S. Constitution.
    Southwest Voter respectfully recommends the following steps 
to ensure a more complete and accurate count, but should not be 
limited to: Provide legal assurances to Congress, the President 
of the United States, the Bureau leaders and staff, the 
communities can be confident that their information will be 
held in complete privacy, confidentiality, and that it will not 
be shared with other agencies, in particular ICE. Allocate the 
necessary resources to count every person residing in the 
United States, regardless of legal status. Provide local 
hearings on what the Latino community expects and participates 
from the U.S. Census Bureau. Partner with Latino national, 
statewide, and other organizations. Hire and train sufficient 
bilingual Latino staff members early who come from those 
communities that face historical undercounts. I believe the 
Bureau calls them indigenous hirings.
    Cultural awareness must be part of the training when 
conducting count. Use long-cuts, not shortcuts only using the 
short form--it should not only resort to statistical sampling 
after the count is completed, incomplete, and accurate, but it 
should resort to making sure that persons are counted from the 
get-go.
    During the cleanup period of the count, if necessary, hire 
more individuals to help communities complete the form, and, if 
necessary, should provide more resources to ensure a complete 
and accurate count. Provide enough time to have the cleanup 
period that is realistic and practical to ensure a full and 
accurate count. And finally, call for and ask the President to 
maintain a moratorium on immigration raids.
    Mr. Chairman, Members Rodriguez and Gonzalez, thank you 
once again. And I thank the three of you for being champions in 
making sure that every person of color is counted. Thank you.
    Mr. Clay. Thank you so much, Ms. Camarillo.
    [The prepared statement of Ms. Camarillo follows:]

    [GRAPHIC] [TIFF OMITTED] T2899.032
    
    [GRAPHIC] [TIFF OMITTED] T2899.033
    
    [GRAPHIC] [TIFF OMITTED] T2899.034
    
    [GRAPHIC] [TIFF OMITTED] T2899.035
    
    [GRAPHIC] [TIFF OMITTED] T2899.036
    
    Mr. Clay. And thank the entire panel for their testimony. I 
appreciate that. We will go in the same order as before with my 
host, Mr. Gonzalez starting.
    Mr. Gonzalez. Thank you very much, Mr. Chairman. I 
appreciate it. And I'll try and see if I can hit everybody 
with--an observation first is--you may not know--of course you 
would not know this, Mr. Chairman, but Mr. Saldana, the fine 
work that he does, is equally matched by his wife who works for 
United Way. It's just a wonderful family, and what they do for 
this community is amazing. I don't know if they ever see each 
other, but they truly work in unison in many other ways.
    But, Steve, I think you were pointing out--and even the 
Director pointed out--that people aren't going to be 
forthcoming unless someone they trust in their community--and 
now we're really getting out in the grassroots. It's not 
necessarily Charlie Gonzalez, Member of Congress--and sometimes 
not even a city councilman or whatever, but it's going to be 
someone in their social or their civic life or the church. So 
you've indicated different ways that--let's say Catholic 
charities--and not just limited to Catholic institutions and 
such, but the other churches, different denominations here.
    What specifically--I mean, I know what y'all did last year. 
Are y'all planning anything already this--because we think this 
is early, but this will be on us before we know it. Is there 
anything that y'all are currently doing so that y'all will be 
prepared when the census comes and solicits you as a partner?
    Mr. Saldana. Thank you, Congressman. And thank you for the 
kind words on my wife. She'll be glad to hear them.
    Yeah, absolutely in our immigration program we're already 
starting to talk to people about the need to participate in 
this. I did mention some specific things. A church bulletin, 
for instance, has specific requirements as to its insertion. 
So, if the documents by the Census Bureau are created for that 
process, then it will be truly efficient. And Ms. Bennett 
mentioned the rural communities. The church of any faith in a 
rural community is the center point of that community. And by 
working with them, that will garner the support of that whole 
community and the confidence of those people who attend that 
church.
    But it's very important that all of our organizations right 
now start to get the details--we don't have any documentation--
if the census--you heard about early on things of 2008 and 
2009. If the Census Bureau can get us posters and things, we 
can get these up and have them posted and use those as 
reminders to individuals to start this process.
    Mr. Gonzalez. Thank you very much. Mr. Vargas, also I want 
to point out that you are a member--and I'm trying to remember 
the exact title--on the Census Advisory Commission and such. 
What exactly is your service with the Census Bureau?
    Mr. Vargas. There are--as Dr. Kincannon mentioned, there 
are ten advisory committees to the Census Bureau. One of those 
committees is the Decennial Census Advisory Committee for the 
2010 census. It's made up of about 20 national organizations. 
Some represent stakeholder communities. Some represent 
professional associations. We are the only Latino stakeholder 
in that committee. And it is that committee that has been 
working with the Census Bureau to vet different changes and 
plans for the 2010 census.
    Mr. Gonzalez. And quickly--because you've been in this for 
so many years with MALDEF and NALEO and such, and you know that 
there's political sensitivities and such. All of you have 
pretty well pointed out that there should be some sort of a 
timeout--and I don't want to mischaracterize it. I think we 
have to be very, very careful how we describe this--to allay 
any fears to individuals that may not be documented, that it's 
not going to lead to an arrest, an apprehension, or 
deportation. So the census, obviously, is not Immigration 
Customs Enforcement.
    But politically how do you address that particular 
sensitive subject when there are so many individuals in this 
country that currently believe that there's not enough 
enforcement, that we would be asking in the next couple of 
years that either a timeout or a relaxing of enforcement be 
undertaken? Because I see that as very problematic as far as a 
message for the census to be going out there and engaging ICE, 
Immigration Customs Enforcement, or anyone else.
    Mr. Saldana. Congressman, you're raising perhaps one of the 
biggest challenges the Census Bureau will have. And there is 
precedent for this, and I think that's something that this 
Congress should look to, that there was precedent for this in 
2000 and in 1990. What there is not precedent for, though, is 
the taking of the law into their own hands by private citizens, 
such as the Minutemen who have taken it upon themselves to 
enforce the border, because they see a failure of this by the 
Federal Government. Again, I don't think it's unimaginable that 
we will see private citizens taking it upon themselves to 
prevent the Census Bureau from counting all immigrants.
    So I would call upon the Congress to review now what are 
the penalties for interfering with the actions of a census 
enumerator, and what protections do we have to make sure that 
all enumerators themselves accurately count everybody in the 
household. We know of instances in the past where Federal 
employees have taken it upon themselves to make decisions that 
would keep immigrants out of certain activities, or even the 
enumeration. So this is something that I think the Congress 
should take a very close look at.
    Mr. Gonzalez. Thank you again just for your observations, 
because I think we do need people that have been on the ground 
for many years, which leads me right into Ms. Bennett, who I've 
known for a very long time. And thank you for all your fine 
work. But I think what you pointed out--and I had someone in 
the audience come up during the break, and they said, ``You 
know, Charlie. We've got a bunch of materials that we put 
together in concert with the City Council on our partnership 
effort of 10 years ago--or 8 years ago.''
    And so I was thinking what utilization should there be of 
all the information that all these different partners--it's all 
out there, and I don't think we have to reinvent the wheel. But 
what it was was their own observations, what were areas that 
they thought they fell short and what they could improve. Isn't 
there a fast, you know, I'd say availability of already 
performance-based evaluations? And what can we do to assure 
that the Census Bureau is going to--in gathering that 
information and using that? Is it going to have to be the 
partnerships themselves to say, ``Look. We've got this 
information. We want to share it with you,'' and such?
    Ms. Bennett. That's a perfect segue. I believe that--first 
of all, the answer is yes to the question. There is just a 
plethora of information that is out there, as well as 
innovative strategies, lessons learned. And I'd like to just 
kind of refer everybody back to the GAO report on census 2000 
and community partnerships. I think it was GAO report ``2000 
Census Review of Partnership Program Highlights Best Practices 
for Future.''
    One of the key things that they talked about was 
consistency, is maintaining a connection in communities down 
through years, so that we don't have to go in and reinvent the 
wheel. That falls back on my initial point about resources.
    Yes, some of our partners still have things that work. 
They've got lessons learned. They've got connections. They know 
what they need to do. But I think that it is unfair to this 
Congress to say to communities, ``Well, go on out there and 
count your people,'' when it's the Census Bureau's 
responsibility in concert with communities.
    So, in order for us to take advantage of the lessons 
learned, the brochures, the materials, the public service 
announcements that these community organizations some of them 
already have and more need, they need the resources. And the 
reason the Partnership Program is so critical is because these 
organizations have to be trained in what the new procedures 
are. The census has been re-engineered. And in order for us to 
educate the public, we also--they need to know what to expect 
for certain operations. They need to know when the operations 
are coming. It's not enough to put an ad on the television and 
think everybody is going to say, ``Oh, I need to be aware 
there's an enumerator in my neighborhood.'' No.
    We need to start working now, because we also have to--even 
though these organizations have material that they can use, 
that material then needs to be integrated into the 
communications strategy, because the communications, whenever 
that contract is let, the contractor is responsible for setting 
the message--the census message so everyone is saying the same 
thing. So what we need to be able to do with resources--these 
community organizations can be trained in what that message is, 
how that message is to be implemented, and how their 
implementation strategy is consistent and aligned with what the 
Census Bureau is going to do. You don't want to confuse the 
public.
    Mr. Gonzalez. And thank you very much. I think that's one 
real clear message is the timeliness of the budget and getting 
the resources to the census. And I know the chairman is going 
back with that message, and, of course, I will join him on the 
floor, as Ciro will, when we advocate.
    Ms. Camarillo, last but not least, Southwest Voter--I mean, 
I just assume--and maybe this is an assumption and I'm wrong. 
But you already work those particular areas that generally 
would be identified as the undercount areas. Are--is there a 
place for you--and I'm thinking is there any conflict--is there 
any reason that you wouldn't be one of those partners? And in 
the past, have you been able to lend any assistance to the 
census?
    Because I just think, one, you already know the 
neighborhoods, you know the families, and you've identified 
individuals that actually have gone to those homes, knocked on 
the door, have conversations--have had meetings, and so--
regarding voter registration. How does that lend itself to be 
in a partner, if at all possible?
    Ms. Camarillo. I don't think we've had--thank you for the 
question. I don't think we've ever had a formal partnership in 
any way, shape, or form with the Bureau. I know that Southwest 
Voter is committed to partner with other nonprofit--MALDEF, 
NALEO, and the other organizations around the country to make 
sure that every Latino is counted. It is a natural process for 
us to--because we are in the neighborhoods working across inner 
cities and rural communities to have conversations and 
partnerships. And as we know for the Latino community, the 
messenger is also very important. And so Southwest Voter is 
already a staple, if you will, for this community. We can say 
that by the way that if we register a Latino and it's--or 
individual register by Southwest Voter and then we later ask 
them to turn out and vote, they know who we are. They know that 
we stood there and fought for them day in and day out. So I 
think that there is an opportunity for us to figure out how to 
work that.
    But I do want to reemphasize my point. In the 2000--and I 
must say I wasn't as actively involved around that time as I 
was in the 1990's with Arturo Vargas and MALDEF, because I 
actually worked for Arturo, I believe. So the point--the point, 
though, is that--it seemed to me then--and I hope we don't do 
this again--that the burden was shifted to communities of color 
for the undercount. And so I think if I can stress the point is 
it's a constitutional obligation of the administration of the 
Federal Government to make that count, and we want to be 
partners to make sure there is no undercount for the obvious 
reasons. It has implications in terms of representation, and it 
has implications in terms of resources for our community.
    But I don't want the Bureau to turn around and say, ``Well, 
we didn't do the count right because we didn't do this right.'' 
We want to be there. We want to be partners. And we're happy to 
see how we, Southwest Voter, might be able to do that in the 
various neighborhoods that we work in across almost 20 States, 
including North Carolina and Georgia and places where you would 
think we're not there. It's not just the Southwest.
    Mr. Gonzalez. Well, thank you very much. And I want to 
emphasize that Southwest Voter is nonpartisan, so we have to 
make sure that people understand that. Again, thank you very 
much.
    Ms. Camarillo. The voters decide.
    Mr. Clay. Thank you so much for those questions. Mr. 
Rodriguez.
    Mr. Rodriguez. Thank you, Mr. Chairman. Let me once again 
thank you. I think you've done a beautiful job with the 
panelists that we have before us. I know, Ms. Camarillo, the 
work you've done throughout on voter education, voter 
registration, as well as Ms. Bennett.
    I was glad you mentioned the rural communities. I represent 
one of the--probably one of the largest districts in the 
country, expanding some--through the--if you go through the 
border, it's more than 700, 750 miles. A straight shot on the 
road is 650 miles long. Mr. Vargas, I know your impact with--
with the elected officials from throughout--you know, has a 
direct, you know, contacting throughout. And, of course, Mr. 
Saldana, thank you, also. You're definitely in all our 
communities.
    And I want to ask I guess just an open-ended question to 
all of you. I've got--it's been very good to me. I've gotten 
good feedback in terms of the--and, Ms. Bennett, your request 
for us to get on the forefront. Ms. Camarillo, your request to 
make sure at the tail-end we don't forget that closing or 
cleanup period and how important that is.
    Taking into consideration my rural community--and I'm going 
to be very selfish here--how would you look in terms of going 
after--since we had 3 million undercount the last time, how do 
we go in those rural communities and/or--you know, maybe 
identifying those problematic areas that you might already 
foresee? And I know you've mentioned some of those areas. How 
do we address those this time around? And I'll leave it open to 
any of the ones, you know, from the church down to, you know--
--
    Ms. Bennett. Thank you. Just to give you an example of 
what's happening in South Carolina; South Carolina is 
predominantly a rural State. It has the lowest mail response 
rate of any State in the union. And my grandparents on my 
mother's side came from South Carolina, so a special place in 
my heart for South Carolina.
    We've been working with--and me, as a private citizen, also 
as a contractor, have been working with partners and local 
governments that we worked with in 2000 because they knew that 
they undercounted a substantial number of folks--African-
Americans in those very rural communities and Latinos, now, in 
those very rural communities.
    One of the things that they're doing in the State of South 
Carolina, Bobby Bowers, he has petitioned the legislature to 
give him resources. They've got $1 million a year from now 
until 2010 to count the undercounted. So he has engaged the 
churches, he has engaged local community-based organizations 
that work directly with the Latino population there, saying to 
them, ``Look. We know there's a problem, but we need to address 
it head on.''
    And I have been working with African-American organizations 
who also have partnered with the Latino community. It's not a 
battle between us in terms of who's No. 1 and who's No. 2. 
Because if you're a minority, we're all in the same boat, you 
know. If our end has a hole in it, you're going down, too. So 
we don't look at it that way, and so--and us country folk, you 
know, we look at it as we're all in this together.
    So--the NAACP, some of the national Panhellenic 
organizations like the Omegas, the Kappas, and the Deltas, 
they've been working with service providers saying, ``Look. 
We've got a significant part of our population that has not 
been counted, and it does all of us good if they are counted.'' 
So we're not driving them underground. We're encouraging them. 
We're holding meetings with them. And we're using those 
resources. And that--$1 million is really not a lot of money 
when you look at the kind of percentage--the growth percentage 
in South Carolina.
    So that's what we've done. We've started up front. We 
talked to elected officials and said, ``Look. We've got this 
situation. It is our situation. These are people in our 
community. They're living here. They're working here, for 
however--whatever their legal status is, and we need to make 
sure that they're counted.''
    The State has also sent a letter out to all of these--the 
elected officials, because you're right. People are looking at 
this--this issue and taking some matters into their own hands. 
So the local elected officials are saying to them, ``Look. We 
need to count everybody because we need these resources back 
into our community.'' And what they've done is they've sent 
letters to the cities and the counties saying how much money 
they lost in 2000. So there's a very--a very graphic 
explanation.
    Mr. Vargas. Congressman, in addition to everything that's 
been mentioned about how to reach rural communities, I think 
this is an important role that the media will have to play in 
reaching these communities; not just television, but radio. And 
we should not underestimate the power of the radio to reach our 
community and the mobilizing impact that it can have.
    We saw the impact of radio in mobilizing millions of 
immigrants and their supporters to take to the streets last 
year. It is that kind of mobilization, that kind of call to 
action that we will need from our friends in the media. And 
it's not just going to be the large, you know, conglomerates of 
media, but the small radio stations that are emerging in these 
rural communities that residents of rural communities listen to 
day in and day out. And, actually, that's where they get their 
information. They trust the local anchor or DJ, and I think 
it's those people that need to be the effective messengers.
    Mr. Saldana. Congressman Rodriguez, I think it's important 
to realize, as we were talking about the raids here, that's 
where they took place in this area. They took place in the 
rural communities, and that's because we have the undocumented 
and Hispanic populations on farms and ranches out--out in the 
community. So this becomes a prime attack on your specific 
congressional district.
    Also, I would like--again talking about the churches, not 
just in writing material, but enlisting the heads of these 
churches. Getting the face of the archbishop, for instance, and 
his name attached to promoting the census would be a very 
powerful weapon out in the church communities, especially in 
your district areas.
    And the faith communities, again, are very powerful in the 
small--in the small, rural communities because nonprofit 
agencies such as Catholic Charities--that start to expand the 
very far reaches of where they can service, and so it's 
important to work with those kind of systems that are inherent 
in those small communities and not just depend on agencies, and 
that's where churches are most powerful.
    Ms. Camarillo. The difficult part about working with the 
rural community is that because it's so spread out--and also, 
there is less people in larger numbers of geography--it's 
important that in addition to what has already been discussed 
by--by the panelists about the press and the media and 
nontraditional ways of communication--and certainly a 
relationship and a partnership through the churches--that you 
really do spend extra resources to go find the individuals.
    There will be, I think, lots of ranchos where you won't 
know that there are several families there, that you have to 
make sure that you have folks out there working also with the 
communities and trusting.
    So it's going to be a lot of word of mouth, lots of trust, 
and lots of resources. It costs more--if we do an analysis at 
Southwest Voter, it costs us more to be in a rural community 
than it does in an inner city, by as much as, sometimes, 100 
percent. So that's what you have to sort of think about.
    But the communities are there, and we need to make sure 
that they're counted.
    Mr. Rodriguez. Thank you very much. And, Mr. Chairman, 
I'm--with that, I'm going to have to personally leave. Thank 
you. Congratulations, and I'll see you tomorrow in Washington.
    Mr. Clay. Thank you so much for being here, Mr. Rodriguez. 
We appreciate your participation in this hearing, and I will 
see you tomorrow. Take care.
    Let me start with Mr. Saldana. Many churches and other 
religious institutions were actively involved in the 2000 
census. You supplied the Bureau with enumerators, with 
volunteers, and we appreciate your efforts in that past census.
    Which actions taken by the Archdiocese were most successful 
in reaching the Latino community?
    Mr. Saldana. Well, in the Archdiocese of San Antonio, we're 
very fortunate to have a Catholic television station and a 
Catholic newspaper. And so these were very instrumental in 
repetitively being able to get the word out. We ran PSAs, and 
we ran printed ads repeatedly in this media.
    We are now fortunate to have Catholic radio as well in this 
area, just recently has come on board, and I think the use of 
this media, also with the confidence that the church brings, 
will be very strong in working with the census this coming 
year.
    Mr. Clay. So those are additional steps that you would 
recommend to the Bureau as far as the outreach----
    Mr. Kincannon. Yeah, absolutely. The--the census in 2000 
was very good at using Spanish language media here in this 
community. And so, using alternative media processes, I think, 
is going to be very important.
    Mr. Clay. Thank you so much for that. Mr. Vargas, in your 
testimony, you pointed out that you were concerned about the 
interference of enumerators. For the record, it is a Federal 
offense to interfere with a census enumerator, and the FBI 
would take that issue up with whoever interfered with that 
enumerator.
    You also suggested some very intriguing--and what I think 
to be helpful--recommendations, such as review laws that 
prohibit the interference--a moratorium should be implemented 
on raids by the INS. I think that's very interesting. You also 
recommended that the Bureau get a waiver for non-citizens. I 
find all three of those recommendations to be helpful.
    Let me ask you about your involvement with the Secretary of 
Commerce's advisory committee. As a member of this committee, 
NALEO has made recommendations for improving outreach to the 
Latino community. In the past, how effective has the Bureau's 
implementation of your recommendations been, and what 
recommendations have you made to the Bureau for the 2010 
census?
    Mr. Vargas. Thank you, Mr. Chairman. The most recent 
recommendations we made had to do with the actual composition 
of the short form and the race and Hispanic origin question.
    And this is an example where perhaps the Census Bureau has 
not been as nimble and quick to change as we had hoped, which 
is why I think responses to the 2008 dress rehearsal be very 
important.
    We were presented with the Bureau's recommendation of how 
the short form--the Hispanic race and Hispanic origin question 
should be worded in--in the 2010 census. And at that meeting, 
we did have some recommendations of how we could tweak it, but 
the Census Bureau again expressed its reluctance to make any 
changes because it--these changes would not have been tested in 
time, even though we thought that the improvements that we were 
recommending would actually improve the composition of the 
question.
    So sometimes our recommendations are taken into 
consideration and we see action upon them. Sometimes the Bureau 
just simply does not have the time or is reluctant to make 
changes because they don't believe they have the time to do 
that, which is why I think the nimbleness needed by the Bureau 
is something that we hope that Dr. Murdock will introduce.
    Mr. Clay. Thank you for that response. Ms. Bennett, you 
recommend outsourcing parts of the Partnership Program, in part 
because you believe it will be a more efficient use of capital 
and human resources and increase external accountability in 
monitoring. Which elements of the Partnership Program do you 
believe should be outsourced? How would outsourcing those 
elements benefit the Bureau and taxpayers?
    Ms. Bennett. First of all, the recommendation is consistent 
with how the Bureau is doing business during--for 2010. This is 
the most contractor-driven census ever. Our field data 
collection has been outsourced. Communications has been 
outsourced, and the communications contract encompasses almost 
everything that was previously under the census--under the 
Partnership Program's umbrella.
    One of the things that I'm looking at when I make that 
recommendation--and this is after having talked to three 
regional directors, past regional directors, and some other 
folks that are still very much interested in what's going on 
with the Bureau. The reason we make that recommendation is 
because there's a lack of nimbleness, as Mr. Vargas has alluded 
to.
    The Bureau has a plan, and the Bureau is going to be very 
diligent with that plan. Given the timing, just for the sake of 
argument, if there is not budget for partnerships in 2008, an 
outsourced contractor will be able to do things faster. They 
don't have the restrictions on hiring. They don't have the 
restrictions on being able to implement programs and to be able 
to move throughout communities as effectively.
    Also, when it comes to the quantitative aspect of this 
census, one of the--one of my biggest disappointments in 2000 
was the--was the way the Partnership Program was measured. 
Because of the timing of things and because of the amount of 
money that we were given, Congress said, ``You will be judged 
based upon the number of partnership agreements that you 
engage.'' OK?
    So then our specialists were running around--they had a 
quota. They were running around trying to get these agreements 
signed without really dealing with the qualitative aspect of 
our partners. And so, by outsourcing, you can better define the 
quantitative aspect of the census and better manage the 
resources. Because you--with a contractor, you don't have all 
of the overhead and those kinds of----
    Mr. Clay. But, now tell me, in 2000, there was quite a bit 
of dissension within the Bureau about the Partnership Program, 
is my understanding. That there were some inside the 
department, in the decisionmaking positions, that really did 
not appreciate the Partnership Program. Is that accurate?
    Ms. Bennett. It's somewhat accurate, just as--just as--just 
as there is right now. I heard the Director say that they 
decided not to fall on their sword for the Partnership Program 
for 2008. OK. So what does that mean for partners? What are we 
saying to our partners? That just as soon as we get ready for 
you, you're just going to drop out of the sky, and the 
infrastructure is going to be there. The infrastructure has to 
be in place, and the Census Bureau has not done that. So I 
guess my question is how serious are they about counting those 
that are undercounted.
    And one other point, please. When we talk about ``This is 
not early,'' this is early. Six percent of the budget was spent 
before 2008. Six percent of $125 or $126 million is a lot of 
money.
    Mr. Clay. And that leads me into the next question. What 
specifically do you see as shortcomings of the Bureau, leading 
to the dress rehearsal as well as to the 2010----
    Ms. Bennett. I'm sorry.
    Mr. Clay. What do you think are shortcomings that you are--
just as an outside observer, what do you see as shortcomings 
that----
    Ms. Bennett. OK. OK. One, I definitely believe that the 
commitment to the Partnership Program early on is a definite 
miscalculation. Because these partners and all of the other 
thousands of partners out there need us to be--need to be 
engaged with the Bureau right now.
    These agencies have changed. The leadership has changed. 
Yeah, there are some things that we won't have to reinvent the 
wheel on, but what about their issues? We can't just come in 
and say, ``Well, we're from the Census Bureau, and you need to 
count your people,'' and just go about doing it.
    Their--they have issues. They have an agenda of their own. 
So what the Bureau needs to do is to be able to integrate with 
them early. That's No. 1.
    The second thing is--the other assumption is that the 
communication strategy is just going to--that's the magic 
bullet. That's the second miscalculation.
    The communications contract, if it is--just for the sake of 
argument, if it is let in September, it will take them at least 
a year to develop the campaign. They're not going to come in 
with a campaign. They have to develop the campaign. Then we're 
looking at 1999, early 2000. What are partners doing in the 
meantime? What are the communities doing in the meantime? 
That's the second thing.
    And the third thing, again, goes back to--to resources, to 
say that, ``The Partnership Program has ongoing efforts now, 
and so we don't need any until 1999,'' I think is a--is a big 
miscalculation.
    In 2000--I came on in 1996. All regions had their 
partnership coordinators on in 1997. We had partnership 
specialists working with local governments on LUCA in 1997. 
None of that has taken place this time around.
    Third, by the time 2008 rolled around, we had our first 
wave of partnership specialists in place with that 6 percent of 
the budget. It's a small amount in contract, but when you look 
at 6 percent and you've got people on the ground working, it--
they laid the groundwork for the folks that came on in 1999.
    Mr. Clay. Thank you for that. Ms. Camarillo, please know 
that the laws of representation due to the undercount is a 
major concern of this subcommittee, and thank you for 
highlighting that in your testimony.
    In addition to Texas, California, and Florida, what other 
States do you think lost----
    Ms. Camarillo. Well, there were 3 million people--that's so 
many more seats that we lost. So I'm not sure exactly what the 
losses were, but if it--I would assume that if 3 million 
voters--3 million folks were not counted, that means that one-
third of that was Latino. I wouldn't be surprised if one-third 
or more is African-American. That means the African-American 
community lost a seat.
    I'm not sure where, what city, what State--I mean what 
State, but clearly--and then I'm sure--there were the other 
communities where communities also of color and Native 
Americans, and then there's a combination. But I don't have an 
absolute sense--I'm not an expert on the census. In 2000, I was 
busy running the--the 2000 Democratic Convention, so I didn't 
follow it as closely as you-all did.
    But--but for Southwest Voter, counting every person is a 
constitutional mandate, as I mentioned in my testimony. But I 
find the irony that this country, being the richest country in 
the world, can make sure that we pay all our taxes to the IRS, 
but we can't count voters when we vote, and we can't count 
every person when the--the Constitution calls for us being 
counted.
    So I think that it's--it's important that if I say one 
thing that is not in my testimony is that the administration 
currently in place today will set in motion lots of the--the 
plan that will be executed in the next administration, whether 
it sits with the current GOP leaders or whether it sits with 
the Democrats.
    If this current plan isn't a plan that looks to include all 
communities of color, then as much as the communities want 
whoever is in charge the next time, even if they're 100 percent 
committed by money, resources, and soul, it will be very hard 
to move that quickly. So it's imperative that we are diligent 
in making sure that the administration is honest and clear and 
committed to making sure that every person is counted.
    Mr. Clay. What is the best way to communicate--and I'll ask 
you and Mr. Vargas to answer this. What's the best way to 
communicate to communities the importance of representation and 
the importance of being counted accurately so that--accurately 
so that you don't lose your representation in Congress or you 
are not cheated out of your representation? What is the best 
way that we can communicate through the Bureau and through 
organizations like yours?
    Ms. Camarillo. I think it has to be a partnership that is 
multifaceted. It's going to have to be the government at all 
levels, the Federal, the State, the local, because everybody 
loses. It has to be the--the nonprofit organizations, the 
churches, labor.
    But it also has to be, now, some money sent out to do some 
campaigns that people listen. I mean, one thing that we can 
say--those of us who are involved in getting out the vote, 
whether it's for the Latinos or other communities, if you 
hear--if you put it out once, it's as if you didn't hear it. So 
it has to be repeated, repeated, repeated, repeated until 
people get it that, No. 1, it has implication on services for 
them, as well as representation.
    When people think about bread-and-butter issues, maybe your 
child might have better books or a computer that they don't 
have. If it--if we send a message that resonates to people 
about what they're losing--sometimes, when you say you're 
losing $1 million or $1 billion or whatever it is your 
community is losing, it doesn't make sense to them unless they 
hear that it might mean, you know, the street corner pothole is 
fixed, no more floods, better schools--it has to resonate, and 
everybody, including from the President to Congress, has to 
start sending out that message and spending the money telling 
the communities that it's almost time again to get ready to be 
counted.
    The importance--and more importantly, that we have a 
commitment that confidentiality is going to be kept and that 
agencies are not going to be getting information that we, by 
the Constitution, are mandated to keep confidential.
    Mr. Clay. It sounds like you should be part of the 
communications team also. Mr. Vargas.
    Mr. Vargas. Yes, Mr. Chairman. With regard to 
reapportionment, let's not forget that it's a zero-sum game. 
There are only 435 Members of Congress that have to be 
reapportioned among the States. So not only did California and 
Texas and Florida not gain a seat because of the undercount, 
but it's also quite possible that the State of New York may 
have lost a seat because not everybody was counted in New York.
    So this is a key issue not just for gains, but for losers 
in the reapportionment. There's been a lot of focus on Utah in 
the last reapportionment, because Utah just narrowly missed 
that extra seat.
    Ms. Bennett. It went to North Carolina.
    Mr. Vargas. It went to North Carolina instead. [Laughter.]
    Utah has experienced, also, a significant increase in its 
immigrant population. So it would be in Utah's interest to make 
sure that all immigrants are counted in that State, given 
2010's reapportionment--or 2011's reapportionment.
    Mr. Clay. Thank you for that response. Mr. Gonzalez.
    Mr. Gonzalez. Just real quick. Ms. Bennett, I know we've 
gone on--all to the different partnerships. Something that we 
haven't discussed that just occurred to me, how do we utilize 
the schools; to what extent and, of course, are there any 
obstacles? Because, I mean, that is, you know, a gold mine. You 
know, you have the child there who takes the information home, 
I mean--as an assignment. You know, there are different ways of 
doing this.
    Ms. Bennett. That is an excellent question. The Census in 
Schools program that we utilized in 2000 was a phenomenal 
program, and I think everyone knows the reasons.
    Many times, when you're dealing with households that are of 
immigrant standing, they don't necessarily read English well. 
So the children go back and take the message. Many times, the 
children are the ones that complete the questionnaire.
    The same thing holds true for communities that have 
literacy challenges, whether they be Appalachia, KY, or West 
Virginia, or rural North Carolina where you've got parents 
that--black families that don't read well, the children are 
actually doing the questionnaire. And as a part of the Census 
in Schools campaign in 2000, that was a key. And that was where 
we spent a lot of--a lot of resources, and it was extremely 
important.
    Now, that goes back to my original--I'm just kind of 
beating this. When it comes to the Census in Schools campaign, 
they need resources now. Now, let me--let me say--let me say 
this to you. And you guys know--I'm sorry. You-all know this 
better than I do. I'm sorry. If the Census in Schools campaign 
is not started now, it will be a waste of taxpayer dollars.
    Given the No Child Left Behind mandates on local school 
districts, they began doing their curriculum planning two and 3 
years out. So, if the Census in Schools campaign is rolled out 
in 1999, it's just information that's going to be sitting in a 
corner.
    Because teachers are saying, ``Hey, look. I've got to get 
these kids ready for end of--end of grade tests. I've got the 
State requirements, and I've got the Federal requirements. Oh, 
and by the way, I want to get that bonus. And you want me to do 
the census on top of that?''
    So, if the Census Bureau--to hear people say that this is 
too early is ludicrous. This should have started a long time 
ago with the right resources with Census in Schools so that we 
could have engaged the right partners, we could have been 
before the right curriculum committees, the right education 
associations to have them engaged, and have this incorporated 
into the strategy. To drop this on schools in 1999, as I said, 
will be a waste of taxpayer dollars.
    Mr. Gonzalez. And, Mr. Chairman, probably--since--I mean, 
I'm not on the committee, but maybe we need to establish where 
are we with the Census in Schools program, if at all, if we're 
anywhere--I'm just looking here. March 2010, census--census 
questionnaires are mailed or delivered to households. We're 
obviously at that point, you know.
    And then the timing of everything, too. Because--because of 
No Child Left Behind and the mandated test, I think they're 
probably taking place right around the same time.
    One last observation--and we haven't touched on it--and 
some people are going to say that it doesn't--it's not as 
relative to minority communities because of the digital divide. 
I don't exactly believe that. I mean, I think there is a 
digital divide. Don't get me wrong. But the use of the 
Internet--and I know we have individuals here, I think, from 
the regional office. And again, I think when we leave here 
today, I would like to inquire--and I may formally do that 
through you, Mr. Chairman, as to what is the intended use of 
the Internet.
    And I'm not just talking about a Web site for the Census 
Bureau where people get information. I'm talking about 
proactive, affirmative use of the Internet. It is the most 
incred--it has revolutionized society. And where we were in 
2000 and where we will be in 2010, it's light years of change. 
And I haven't heard anyone allude--and maybe it was because of 
the topic, minority communities, and people sort of write us 
off and don't think that, you know, the cyberworld really 
applies to us, but I think that it does.
    Again, availability of the information--and Steve is 
talking about maybe the centers where they have the immigration 
information and the workers that do have access to a PC. Is it 
just having the Web site? Is it going to be more than that? 
Obviously, I just assume all that is out there, but really 
being proactive in the use--because what you have are different 
services that are being provided by different entities that I 
think would be happy to partner up with the Census Bureau.
    And I am talking about the huge search engine Google or 
Yahoo and so on. This would be incredible. So--and this does 
filter down to our communities. Maybe not to the degree or 
extent of other communities, but, nevertheless, I think it's a 
resource that we may have overlooked and has some implication 
to the topic at hand today.
    And so, with that last observation, if anyone has any other 
observations regarding either the schools or the Internet, I'm 
happy to entertain that now.
    Mr. Vargas. You're absolutely right, Congressman. Those are 
the new media that we need to utilize. Also cell phones.
    One of the biggest mobilizing tools used in the marches of 
2006 were young people text messaging each other and advising 
each other of the marches and using it to really to mobilize. 
These are the kind of media that the Bureau needs to employ in 
2010.
    Mr. Saldana. Please. Ladies first.
    Ms. Bennett. I was just going to say, I do believe that the 
Internet and the Web site and all those kinds of things are a 
part of the communications contract, but I totally agree with 
Mr. Vargas. When you look at the capability of texting now and 
how our children get their messages--many times we're looking 
at households that have--everybody in the house has a cell 
phone, and they may not have Internet connection, but they've 
got a cell phone, because everybody is all over the place. So 
that's a--that's a valuable resource.
    And also, when it comes to the Internet and also to the Web 
sites, in 2000, members of organizations such as the 
Panhellenic organizations, the Delta Sigma Theta organizations, 
Alpha Kappa Alphas, the Kappas, the Omegas, those 
organizations--nine major organizations connected their Web 
sites to the Census Bureau's Web site. That was how they got 
information to their ministers, to their local elected 
officials.
    So it is going to be critical for us--and I think, you're 
right, that anyone--the Bureau, any agency makes--makes a 
strong miscalculation when they assume that the digital divide 
has left us all behind. We are very well connected, and I think 
that's an asset that they need to take advantage of.
    Mr. Saldana. Two things. The--schools were very 
instrumental in our success at outreaching to the CHIP program, 
another Federal/State program. And when we were able to see the 
receptivity working through the schools of being able to get 
children enrolled on CHIP and being able to take that 
information to their families, I would certainly encourage the 
Census in Schools program, and I agree it needs to be done now 
so that we can get to those parents on a repetitive basis.
    The other thing, the State of Texas has gone to an 
integrated eligibility process in which computers are used for 
the outreach of all social service systems in the State. And 
all of that has been problematic in its implementation. Most 
agencies are set up for the use of computerization systems for 
working with families in the State of Texas.
    And so I would encourage, then, the outreach to the State 
system in saying, ``We need this integration with the census, 
because all these agencies are going to be using that system to 
working with families.''
    Mr. Clay. Thank you so much. And--oh, I'm sorry. Go ahead.
    Ms. Camarillo. Mr. Chairman, thank you. I know we're out of 
time, but I am not going to suggest that I know what works 
better, but I will caution us that we don't allow the Census 
Bureau to go technology high in spending all their moneys.
    What I do is I work with grassroots communities. That's how 
our communities turn out to register and turn out to vote. And 
I would argue that would be the same way. It should be a 
partner component, but it should not be the solution to--to the 
problem--to the issue. Remember, our communities don't trust 
that.
    On the computer question, most of the schools in Texas do 
not have one computer, menos everybody else. So I'm not going 
to suggest it's a good good idea. I'm not going to suggest it's 
a bad idea. I know it's a new form of technology that we have 
to invest and figure out how we use it, but it should not be 
exclusive or the only--or the star flagship.
    Mr. Clay. I appreciate the point that has been made here by 
Congressman Gonzalez to get a timetable from the Bureau on 
their outreach to--to schools throughout this country. We will 
make the request from this committee--and I will share that 
with you and your caucus--so that we have a clear indication of 
timetables and what is to be expected throughout this country 
by the Bureau. That's a very valid point.
    And as Ms. Bennett said, it may require a reshaping of 
that--of that contract or--or the--the entire Bureau's plan. So 
we will assess that once we get a response back.
    Let me just quickly ask Mr. Vargas on another issue--in 
recent memory, there have been a number of well-publicized data 
breaches at various Federal agencies, including the Census 
Bureau, as well as in the private sector. Are you concerned 
that these breaches of personal privacy might undermine the 
public's confidence in the Bureau's ability to protect their 
information? Is this further compounded by the tone of the 
information policy debate?
    Mr. Vargas. Thank you, Mr. Chairman, for that question. 
Absolutely. Shortly after 9-11, the Census Bureau actually 
compiled a list on Americans--or census tracts with large 
number of Americans for use by DHS, and that was very 
problematic.
    We raised this through the Census Advisory Committee 
directly with the Bureau, and as a result, they established a 
new office, the Chief Privacy Office within the Census Bureau.
    Now, I am not aware of what the role of the Chief Privacy 
Officer will be in implementing the 2010 census. And I think 
that would be an appropriate question from the committee to the 
Census Bureau about the role of the Chief Privacy Office in 
the--in the enumeration.
    Also, new revelations have come forward about what the true 
role of the Census Bureau was in World War II and the 
identification of Japanese Americans. All of this is not 
helpful now.
    So, to the extent that the Bureau can assure us that it's 
going to be on the up and up, will enforce Title 13 of the 
Privacy Act, is going to be key, because all of us are going to 
be on the line telling our communities, ``Trust the Bureau.'' 
You know, if the Bureau, you know, undermines that, then we all 
have egg on our face.
    Mr. Clay. What steps do you think the Bureau must take to 
cultivate confidence in the Latino community regarding the 
Bureau--2010 census without divulging personal information?
    Mr. Vargas. Well, I think this is--this gets to the point 
that's been made to this committee, that the partnerships are 
exceedingly important, and they need to start now. Because in 
order for anybody to stand up to the Bureau, they need to have 
that trust themselves with the Census Bureau. They need to know 
who the Census Bureau employees are going to be. They need to 
trust them, that they know exactly who the community is.
    It is unreasonable to expect that--a few months out, that 
people from the community will stand up and defend the Census 
Bureau if they have not developed that relationship with the 
Census Bureau over time. Which is why the fact that we didn't 
have the Partnership Program continue from 2000 to 2010 means 
we lost some ground. The Bureau probably lost some of those 
relationships and has to rebuild bridges and rebuild trust, 
because the Bureau needs to have the trust of the local priest, 
of--of the school teacher, of the community organizer, who is 
going to be telling the community, ``Trust the Census Bureau.'' 
Because, ultimately, it's the Census Bureau doing enumeration, 
not us.
    Mr. Clay. Ms. Camarillo, you recommend that the Bureau use 
the long form, which has been replaced with the ACS to make 
sure everyone is counted. What role can an organization such as 
SVEP play in increasing awareness of the ACS?
    Ms. Camarillo. Well, again, we'd be happy to talk to our 
communities and share the communities, and as you know, that 
takes resources. We have yet to take--and I don't believe we 
ever will--government money, because we want to continue to be 
nonpartisan, so that always continues to be an issue. But--but 
for us, we think--and again, not being experts on the census, 
but understanding that it's our responsibility to understand 
and figure out how each community is counted and respected, 
that by having more information allows us to understand better 
our communities; and, therefore, the public policymakers can 
better form policies and legislation that can take care of 
their issues.
    That is why I think the long form is necessary, but if I am 
wrong, then I will be told that and--on occasion, I change my 
mind, but I'm very stubborn, so----
    Mr. Clay. Thank you for that response. I'll recognize my 
colleague----
    Mr. Gonzalez. I have nothing further, Mr. Chairman. Just, 
again, to thank you and your staff for the wonderful work, the 
fact that you picked San Antonio. To all our witnesses that had 
so much--it was really substantive in nature, and obviously 
we--the chairman has said we're going to followup on some of 
your own questions, and such.
    And to everyone that attend--I know that some of you are 
just private citizens that are here in that capacity. Others 
are representatives of a different agency or an entity or a 
governmental unit. Thank you for your interest. And, of course, 
we look forward to forming those partnerships with each and 
every one of you. Thank you again.
    Mr. Clay. Thank you so much. And let me again thank my--my 
host, Charlie Gonzalez, for showing us around this beautiful 
city and the Southwest. I have appreciated my first visit here. 
It will probably not be my last.
    I think that this first field hearing of the subcommittee 
on the census was a success, and it will be part of an ongoing 
process of listening to the people throughout this country to 
find out what their reaction is to the census and what their 
impression is of the Census Bureau.
    From testimony today, it's certainly obvious that the 
climate in this country must change as far as the whole 
immigration issue is concerned, and that's imperative among 
Members of Congress to help change that debate, and refocus it 
on what's really important to this country.
    Diversity is essential in and outside of this Bureau, and 
it should be reflected within the Bureau and in the way they 
conduct business. That point was hammered home today. The 
undercount must be eliminated. That should be their No. 1 goal, 
and this committee will certainly keep them focused on that 
objective of how we eliminate the undercount throughout 
America's communities.
    The Bureau must instill public confidence, also, in its 
ability to collect data and keep it private. We must--they must 
do a better job, and governmentwide--we must all do a better 
job in that.
    So let me again thank this panel for your testimony today 
and for participating in this. I appreciate it, and I 
appreciate the city of San Antonio.
    Let me also recognize Congressman Gonzalez's staff for all 
of their help, especially Angela Manson, Theresa Rangle, and 
Stephanie Smith. Thank you all.
    And thank you all for being here. That concludes this 
hearing.
    [Whereupon, at 11:59 a.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T2899.037

[GRAPHIC] [TIFF OMITTED] T2899.038

                                 <all>

</pre></body></html>
